<html>
<title> - TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                               U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:31 p.m. in room 192, Dirksen 
Senate Office Building, Hon. Susan M. Collins (chairman) 
presiding.
    Present: Senators Collins, Blunt, Boozman, Capito, Daines, 
Reed, Murray, Feinstein, Schatz, Murphy, Manchin, and Leahy.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY


             opening statement of senator susan m. collins


    Senator Collins. The Subcommittee will come to order.
    Today, I am pleased to welcome the Secretary of 
Transportation, Elaine Chao, who will testify on the 
President's fiscal year 2019 Budget Request.
    I'm also very pleased to be joined today by my friend and 
our Ranking Member, Senator Jack Reed.
    Unlike previous years when we faced uncertain budget 
allocations for many months, we are fortunate to begin the 
fiscal year 2019 appropriations process with new budget caps 
enacted by Congress in February. The budget agreement provides 
additional funding for the next--over 2 years for critical 
national defense programs as well as for domestic priorities, 
such as rebuilding our infrastructure, addressing the opioid 
epidemic, and providing for our nation's veterans.
    Thanks to the increased budget caps, Senator Reed and I 
were able to include an additional $12.6 billion for THUD 
programs in the fiscal year 2018 Omnibus bill as we worked with 
our colleagues on both sides of the aisle and both chambers as 
well as the Administration.
    This increased funding will provide much-needed support for 
our nation's crumbling infrastructure. In fact, our bill was 
the first down payment on the Administration's Infrastructure 
Initiative.
    I certainly hope that we can continue this good work in 
2019 as we evaluate the Administration's proposals and receive 
input from members on both sides of the aisle.
    The Administration's 2019 budget request includes $76.8 
billion for the Department of Transportation, a substantial 
reduction from the $87.1 billion for this year, and $200 
billion over 10 years, for a government-wide infrastructure 
initiative.
    I would note, however, that the budget was put together 
prior to the agreements on the budget caps.
    The budget, unfortunately, fails to address the greatest 
threat to our Nation's infrastructure and that is the ever-
growing insolvency of the Highway Trust Fund. Rather than 
offering a solution to this problem, the Administration's 
budget reflects a cut of $122 billion over the 10-year budget 
window for critical highway and transit formula programs.
    I'm also concerned that the Administration has not offered 
up its own solution to the insolvency of the Highway Trust 
Fund. Since 2008, Congress has provided more than $140 billion 
in general fund transfers to sustain critical funding from the 
Highway Trust Fund.
    Rather than focusing on this issue, the Administration is 
instead advocating a new set of grant programs. Half of this 
overall funding would be devoted to the Incentives Grant 
Program which would slash the Federal cost-share of highway 
projects from the current 80 percent to 20 percent and require 
State and local governments to raise their own revenue to make 
up the shortfall. This formula would penalize low-income and 
rural States in particular, but I find it difficult to conceive 
of many states or local governments that would choose to apply 
for Federal funds that only provide a 20-percent cost share.
    While I'm pleased to see the rural set-aside in the 
infrastructure proposal, I want to reiterate that this cannot 
be a substitute for funding from the Highway Trust Fund. 
Without a fix to the Highway Trust Fund, my concern is that the 
Administration's infrastructure proposal would simply lead to 
the abdication of the Federal role in transportation and lead 
to devolution to the states. I do not believe that that is a 
feasible approach.
    The Administration has also proposed to eliminate the 
highly effective and popular TIGER Competitive Grant Program, 
which, as the Secretary correctly noted at a recent ribbon-
cutting, can help grow local economies, create jobs, and make 
travel easier.
    Again, I recognize that a lot of these decisions were made 
prior to knowing what the allocations were going to be.
    This program offers funding for states and local 
governments that would not otherwise be able to fund critical 
infrastructures in our nation's roads, bridges, ports, and 
railways.
    The budget request, once again, proposes to reduce funding 
for other key programs that serve rural communities, such as 
the Essential Air Service Program and Amtrak's Long Distance 
Routes. Maine benefits greatly from the EAS Program because of 
the long geographic distances between our small communities and 
hub airports that connect to the national transportation 
system.
    Several members of this committee have also expressed 
concern with the Administration's request to eliminate the 
Transit New Starts Project and are particularly concerned about 
how the Administration will use funding provided by Congress in 
the Omnibus.
    Communities often wait years to receive approval for these 
projects after rigorous evaluation process and any delays will 
lead to cost increases. I know that the Secretary personally is 
deeply concerned about eliminating unnecessary delays and 
cutting red tape for all infrastructure projects and so I hope 
that the department will be able to move the projects to 
completion more quickly going forward.
    For the Maritime Administration, the budget proposes to 
reduce funding for the Maritime Security Program, which is 
critical for our nation's domestic sealift capabilities as well 
as training for merchant mariners at the U.S. Merchant Marine 
Academy and the six-state Maritime Academies.
    I am encouraged that the budget provides funding for the 
new Training Vessel Program and to address sexual assault and 
harassment at the Maritime Academy. I fully expect the Academy 
to continue implementing the necessary reforms to keep our 
cadets safe.
    In aviation, Congress recently extended the authorization 
for the FAA through the end of this fiscal year and provided 
necessary increases to both NextGen and the Airport Improvement 
Program.
    Unfortunately, the budget request once again includes 
efforts to privatize the FAA. It's imperative, in my judgment, 
that Congress retain annual oversight of the FAA in order to 
maintain the safety and efficiency of our Nation's airspace, 
particularly in rural communities that rely on general 
aviation.
    Now, according to recent reports, the President no longer 
supports moving this proposal forward, and I hope that the 
Secretary will be able to clarify the Administration's position 
today.
    Madam Secretary, I very much look forward to hearing your 
testimony. I appreciate your being with us, and I now turn to 
Senator Reed for his opening statement.


                     statement of senator jack reed


    Senator Reed. Thank you, Chairman Collins. Secretary Chao, 
thank you very much for being here, and we look forward to your 
testimony today. Chairman Collins, again, I'm pleased that 
you're moving quickly to advance the business of this 
subcommittee on the heels of your tremendous work on the 2018 
bill, which passed with such bipartisan support just 2 weeks 
ago.
    We're now turning our attention to 2019 without missing a 
beat, and we're in a great position to start our work. Thank 
you, Madam Chairman.
    As a result of the bipartisan budget agreement that 
President Trump signed, we set aside sequester spending levels 
and freed up significant amounts of new defense and non-defense 
discretionary dollars.
    This agreement allowed for us to invest an additional $8 
billion in infrastructure and safety programs at the Department 
of Transportation, as compared to 2017. Under Chairman Collins' 
leadership, we have worked to distribute these new resources 
responsibly and equitably across highways, transit, rail, and 
aviation, with a conscious effort being made to meet the needs 
of both urban and rural communities.
    With all of the rhetoric about the importance of investing 
in infrastructure, the Omnibus actually delivered the goods, 
and the THUD Bill was the centerpiece of that effort.
    In completing the 2018 process, our subcommittee blocked 
many of the House's efforts to include controversial poison 
pill riders that are unrelated to appropriations and detract 
from the real work that we need to do to keep the department 
moving forward. On a bipartisan basis, Congress rejected the 
Administration's proposed elimination of funding for TIGER 
grants and discretionary rail and transit grants and instead 
provided the highest-ever single-year appropriations for those 
programs.
    The additional resources for rail and transit in particular 
will allow for real progress to be made on the state of good 
repair backlog on the Northeast Corridor, while also providing 
freight, passenger, and commuter railroads with desperately 
needed funding for positive train control implementation.
    For 2019, the bipartisan budget agreement provides a second 
year of sequester relief and added funding that should allow 
for the committee to return to regular order and for the 
subcommittee to make smart infrastructure investments.
    After having worked so hard and successfully to get here, I 
hope that the Administration will refrain from undermining our 
progress by floating rescission packages, musing about vetoes, 
or continuing to play politics with major infrastructure and 
safety projects.
    I also hope that we can dispense with the Administration's 
2019 budget proposal which recycles many of the same cuts and 
policies that we rejected in 2018.
    As we review the accomplishments of this subcommittee, it 
is somewhat discouraging to see how slowly this Administration 
is moving to deploy funding provided in previous years. For 
months, and in some cases for more than a year, this 
Administration has been sitting on hundreds of millions of 
dollars that could have been put to work on infrastructure and 
safety projects around the country.
    For all of its talk about project streamlining, the 
Administration needs to streamline its own process and quickly 
deploy these dollars.
    I'm especially concerned because we seem to be encountering 
a refusal to follow the directives of Congress and public law 
when it comes to transit projects. Congress has provided the 
certainty of a continued partnership between Federal and local 
governments to address population growth and congestion 
challenges through the transit Capital Investment Grants 
Program, and yet important transit projects, which meet 
statutory requirements, have significant local investment, and 
have Federal funding available, have been unnecessarily 
delayed. This is unacceptable and doesn't square with the 
commitments made before this subcommittee last year.
    We need to have confidence that DOT will follow the 
directives of this subcommittee to evaluate and issue grants in 
accordance with the law.
    Finally, I must express my concern about the rollback of 
safety and environmental regulations by this Administration. 
Public safety is supposed to be the highest priority at the 
Department of Transportation, but we have seen example after 
example of safety regulations being deferred, canceled, or 
retracted in deference to industry rather than the public good, 
and this needs to change.
    Madam Secretary, one other area where I hope we can make 
progress is on a broader infrastructure package, which includes 
not only transportation but other public resources, like our 
crumbling public school buildings.
    While I appreciate that the Administration has finally put 
forth a plan, it fails to cover all of our many infrastructure 
needs and simply offers false hope by promoting tolls and other 
funding gimmicks that will burden every-day Americans in order 
to entice private sector investment with guaranteed profits.
    Furthermore, while the Administration's plan promises $200 
billion in new Federal funding over 10 years, the 
Administration actually intends to slash Federal funding for 
existing transportation programs by more than $360 billion over 
the next decade. Yet again, we see a disconnect between 
rhetoric and reality.
    We need real Federal investment in our airports, bridges, 
transit systems, and ports in order to create jobs and 
strengthen our economy now and into the future. That is exactly 
what our 2018 bill did, but we need a partner to see this 
vision executed and implemented. I hope that we can move 
forward together to meet these mutual goals. We may disagree 
from time to time about how to get there, but I hope we can 
work together to accomplish these goals.
    This subcommittee has spoken, Congress has spoken, and now 
we need to move forward. Again, Secretary Chao, thank you for 
appearing before us today. I look forward to hearing your 
testimony and your response to questions.
    Thank you, Madam Chairman.
    Senator Collins. Thank you very much.
    Secretary Chao, we're delighted to have you with us this 
afternoon, and please proceed with your statement.


                 summary statement hon. elaine l. chao


    Secretary Chao. Thank you, Chairman Collins, Ranking Member 
Reed, and Members of the Subcommittee.
    I appreciate the opportunity to appear and discuss the 
President's fiscal year 2019 budget request for the Department 
of Transportation.
    As mentioned, I look forward to working with all of you to 
continue our joint efforts to provide the American people with 
safe and reliable transportation systems.
    The President's budget request and his Infrastructure 
Proposal work together to provide bold new ideas for using our 
financial resources wisely, creatively, and expanding our 
partnerships with state and local governments, and encouraging 
private sector involvement where appropriate and allowing them 
to be involved where appropriate.
    These changes provide a path forward to improving our 
transportation infrastructure quickly without dramatic 
increases in Federal spending that would stifle economic growth 
and job creation.
    The President is requesting $77 billion for the Department 
of Transportation. About 80 percent of these dollars will be 
applied to fully funding the fourth year of the FAST Act, 
Fixing America's Surface Transportation Act, as well as funding 
the authorized levels of FAA's Airport Improvement Program. The 
remaining 20 percent of the budget funds the Department's 
discretionary programs.
    While not in the original budget-released materials, the 
President's Budget Request also includes $300 million to 
support the replacement of two of the oldest ships in the 
Maritime Administration's School Ships Fleet. These new assets, 
these new ships will enable us to continue to meet the training 
needs of our future merchant mariners as the current ships are 
retired.
    The President's Budget Request calls for changes in several 
major programs. For example, the President's request does not 
continue the current manner of funding for the TIGER Grant 
Program or for new projects proposed in the Federal Transit 
Administration's Capital Investment Grants program.
    The types of projects traditionally funded through these 
programs are ideal candidates for the new programs outlined in 
the President's Infrastructure Proposal, and as you begin your 
consideration of the President's Budget Request and his 
Infrastructure Proposal, we will continue to focus on our new 
responsibilities.
    The recent passage of the fiscal year 2018 Omnibus 
Appropriations Act includes significant funding increases, well 
over $12 billion, to many of the Department's core programs.
    The Department is assessing the requirements in the Act and 
is identifying the steps needed to responsibly administer this 
funding and the new programs provided on a timely basis, as 
dictated by the Congress.
    Thanks again for the opportunity to appear before you today 
to discuss the President's fiscal year 2019 Budget, and I look 
forward to continuing our partnership on transportation issues 
on behalf of the country, and I'll be happy to answer any 
questions that you may have.
    [The statement follows:]
               Prepared Statement of Hon. Elaine L. Chao
                              introduction
    Chairman Collins, Ranking Member Reed, and members of the 
Subcommittee--thank you for the opportunity to meet today to discuss 
the President's fiscal year 2019 Budget request for the Department of 
Transportation. Together, the President's Budget request and his 
recently-released Infrastructure Initiative proposal provide new 
opportunities to rethink and retool our approach to transportation 
funding for the future. Both proposals recommend funding alternatives 
that use modern investment strategies and leverage Federal dollars by 
building more equitable partnerships with State, local, and private 
sector entities.
    The President's Budget requests $76.8 billion to support 
transportation programs in fiscal year 2019. About 80percent of this 
funding supports the Department's Trust-funded mandatory programs. This 
includes the $57.4 billion proposed for surface transportation 
programs, as authorized by the Fixing America's Surface Transportation 
(FAST) Act and the $3.4 billion proposed for the Federal Aviation 
Administration's Airport Improvement Program. All together, the 
President's request includes a 4 percent increase for the Department of 
Transportation's mandatory programs.
    The remaining 20 percent--or $15.9 billion--funds the Department's 
discretionary programs. In order to ensure that the Department is 
maximizing the return on its Federal transportation investments, the 
President's request does not continue funding for some transportation 
grant programs but instead leaves open the possibility that projects 
within these programs could be better considered under the President's 
new Infrastructure proposal.
                  addressing our infrastructure needs
    Consistent with the President's Budget request, his Infrastructure 
proposal provides a bold new approach for addressing our infrastructure 
needs across the broad spectrum of Federal programs. It tackles the 
complex problems of improving infrastructure by focusing on better ways 
to finance, manage, and use our current and future transportation 
assets. The proposal also calls for advancements in the permitting 
process that streamline and shorten timeframes so that projects can get 
underway quickly. The President's Budget includes $200 billion that 
will
    leverage State, local, and private investment resulting in at least 
$1.5 trillion of new infrastructure investment over 10 years. His 
proposal includes the following programs:

  --Incentive Grants ($100 billion) to encourage State, local and 
        private investment by awarding incentives to project sponsors 
        that propose innovative approaches to generate revenue for 
        infrastructure investment, prioritize maintenance, modernize 
        procurement practices, and generate a high return on 
        investment.

  --Rural Infrastructure ($50 billion) to address the significant need 
        for investment in rural infrastructure. Most of the funds would 
        be provided to States by a formula distribution, with the 
        remaining funds distributed based on performance. This includes 
        a set aside for federally recognized Tribes and Territories.

  --Transformative ($20 billion) for bold, innovative projects with 
        potential to dramatically improve America's infrastructure.

  --Infrastructure Credit programs ($14 billion) to boost innovative 
        finance programs such as the Transportation Infrastructure 
        Finance and Innovation Act and the Railroad Rehabilitation and 
        Improvement Financing programs.

  --Private Activity Bonds (PABS) ($5.9 billion) to expand the 
        flexibility and eligibility of PABs as an additional project 
        financing tool.

    This comprehensive action plan will quickly address the Nation's 
infrastructure needs by using modern financing tools and business 
practices that have already proven successful in State and local 
projects, consistent with the President's vision.
                             new directions
    With these new Infrastructure Initiative proposals in mind, and in 
order to incentivize changes in the way States and local communities 
finance projects, the President's fiscal year 2019 Budget request does 
not include funding for certain discretionary grant programs. Instead, 
the President's request proposes a different model that would spur 
States and localities to raise new dedicated funding for 
infrastructure, incentivized by competitive Federal grant awards. 
Projects that had previously been funded by Federal discretionary 
grants would now benefit from the additional dedicated state and local 
funding raised.
    One such program is the Federal Transit Administration's Capital 
Investment Grants program. The Capital Investments Grants program 
supports transit projects that primarily benefit specific local 
communities. Under the President's Infrastructure proposal, if States 
and localities raise their own dedicated revenues, the Administration 
would reward them with competitive grants and other incentives. We 
expect this approach will broaden the options available for funding 
transit projects in the future and will provide State and local 
entities more autonomy in deciding which transit-related infrastructure 
projects to pursue. Consistent with this approach, the President's 
Budget request limits funding in this program to projects with signed, 
Full Funding Grant Agreements.
    The President also recommends redirecting the Transportation 
Investments Generating Economic Recovery (TIGER) grant program into a 
more comprehensive infrastructure program with both rural and 
incentives components. The programs comprising the Infrastructure 
proposal are a more effective approach for supporting projects like 
those eligible for TIGER assistance,
    which would make even better use of these vital infrastructure 
dollars. The programs empower State and local governments to construct 
projects based on local priorities and needs, leverage each Federal 
dollar by incentivizing the creation of new revenue sources dedicated 
to infrastructure that can sustain lasting investment and maintenance 
over the long-term, and encourage more innovative and efficient 
approaches to project financing and delivery.
                             other reforms
    The President's Budget request also proposes reforms that would 
provide efficiencies and reduce costs. For example, the trains that 
support Amtrak's Long Distance routes are very expensive to operate and 
maintain, and account for much of Amtrak's $500 million in operating 
losses. Typically, few passengers rely on this service and many trains 
have excess capacity. At the same time, we recognize that some States 
and local communities value this transportation option. In an effort to 
create an equitable partnership, the President's Budget request 
proposes to share the costs of operating Amtrak's Long Distance 
services with those States that provide fifty percent of the funding 
needed to continue these services.
    Reforms are also proposed for the Essential Air Service (EAS) 
program. EAS provides scheduled air service to rural communities that 
otherwise would not be profitable. Although initially envisioned as a 
temporary program, EAS is now almost 40 years old. Many EAS flights are 
not full and have high subsidy costs per passenger. What began as a 
small program is now nearly $300 million per year. The President's 
Budget request proposes reforms to the discretionary portion of the EAS 
program that will save approximately $57 million. These reforms would 
impose new distance requirements to small, medium and large hubs, would 
cap subsidies at $250, and would eliminate certain waiver provisions. 
Together, these reforms will ensure that EAS resources are directed to 
those airports with the highest demonstrated need.
    Throughout the development of the President's Budget request, we 
have taken a hard look at funding directed towards research. Some of 
the research currently conducted in the Department's programs is 
replicated in the private sector or reconfirms established findings. 
This duplication and focus on existing transportation systems 
represents a missed opportunity for change. The President's request 
addresses this concern by significantly reducing funds provided for 
research programs. Remaining research funds will be directed towards 
new and emerging technologies that will help inform decisions regarding 
transportation systems in the future.
    Finally, I want to highlight the President's Budget includes $300 
million for the Maritime Administration's School ships fleet 
replacement program. While this request is not included in our current 
budget materials, it will be part of a forthcoming Budget Amendment 
that you will receive soon. We recognize the importance of the school 
ships to the state maritime academies, and will be exploring options 
for acquiring the necessary replacement ships over the coming months.
    Thank you again for the opportunity to appear before you today to 
discuss the President's fiscal year 2019 budget. I will be happy to 
answer your questions.

    Senator Collins. Thank you very much, Secretary Chao.

                 LOCAL NEED FOR TRANSPORTATION FUNDING

    Madam Secretary, in your statement, you mentioned the TIGER 
Grant Program.
    The tremendous need for this program was once again 
demonstrated this past year by the fact that the department 
received 452 applications requesting more than $6 billion in 
funding for TIGER projects. You only had $500 million, but I 
think that shows the demand is there and how popular and 
flexible this program is.
    In the Omnibus bill, as a result of that demand, we tripled 
funding for TIGER from $500 million to $1.5 billion in order to 
better meet our Nation's infrastructure needs.
    Given your experience with this round of TIGER grant 
applications and the increased budget caps for fiscal year 
2019, why would the Administration not want to stay with a 
winner, with a grant program that communities and States are 
very familiar with and that has been used for such good 
purposes across our country?
    Secretary Chao. Well, as you mentioned in your opening 
remarks, the President's budget request was put together before 
the conclusion of the Omnibus. So there's a complete disconnect 
between what the Omnibus ultimately asked the Department to do 
and the actual budget.
    So we're going to have to work with those discrepancies 
throughout the whole year, but it is clear that the TIGER 
grants are very popular with members and we've been given a 
billion dollars more and we need to be able to process that and 
get it out to the various local and state governments that need 
them, that have applied within the time as specified by the 
Congress. So we're committed to doing that.
    Senator Collins. Thank you.
    I know, Madam Secretary, that you have been a very strong 
supporter of our Merchant Marine Academies and I want to 
personally thank you for the inclusion of additional funding 
for training vessel replacement in the President's Budget 
Request.
    You and I have talked about how absolutely vital those 
training ships are and they are reaching the end of their 
useful life. We were able to provide $300 million in the 
Omnibus which will take care of the first vessel.
    The estimate that we've been told by the department is that 
it will be delivered--that's going to be the New York Merchant 
Marine Academy vessel. That it will probably be delivered in 
December of 2021. That means you're going to still have a 
problem with the current vessel's life having to be extended.
    Do you see the need that there will have to be additional 
repairs to keep the current vessel going until we can get a new 
one in place?
    Secretary Chao. I think it was a bit confusing as to what 
the $300 million was for. So in fact, the $300 million is 
already put into the Omnibus, and the President's request is 
for another $300 million. So it's actually for the second ship, 
and there was a proposal to have $300 million for both ships 
but take two old cargo ships, refurbish them and do it that 
way.
    So there are a number of options, but the most optimal 
route would be to have two new ships.
    Senator Collins. I totally agree, yes.
    Secretary Chao. Given again their age and we're having 
young merchant mariners go on these ships.
    Senator Collins. And in many cases, these vessels were 
already used to begin with when they were converted. So my hope 
is that the first ship can serve as a model for the subsequent 
ones and, as you say, there should be sufficient funds to have 
two new ones.
    Given that the Maritime Administration has limited 
experience with ship construction and large procurements, how 
will you ensure that the agency can carry out this procurement 
successfully?
    Secretary Chao. I think that's a very important question, 
which I am concerned about as well. Admiral Buzby, the Head of 
the Maritime Administration, has assured me that in fact they 
have been receiving a number of inquiries from interested 
shipyards that are mostly devoted currently to military 
construction but nevertheless that they are interested, and two 
ships add to the economy. It adds actually to the ease of 
building the second ship because of the experience built in the 
first ship. So it's actually better to build two at the same 
time.
    Senator Collins. Thank you.
    Senator Reed.

                            TRANSIT PROGRAMS

    Senator Reed. Thank you very much, Madam Chairman, and 
thank you again, Madam Secretary, for your work at the 
department. I would like to begin with the transit Capital 
Investment Grants Program.
    The program has absolutely critical strong bipartisan 
support. It was reauthorized by a Republican Congress through 
2020, and last year, as you know, this subcommittee 
appropriated the highest level of funding in the history 
program on a bipartisan basis. However, it seems that the 
money's not getting awarded, and while you have indicated in 
the past that you would distribute whatever funding was 
provided, the funding seems not to be getting out there.
    Will you recommit to your philosophy of awarding the 
funding provided, because one of the rationales we've heard for 
the delays is that the localities don't have all of the funding 
appropriated.
    We appropriate funding on an annual basis, and to turn 
around and ask a locality to perhaps reserve multiyear funding, 
doesn't seem to make any sense. FTA's practice in the past has 
been if you meet the requirements of the program then, 
appropriations would be available without this other 
requirement.
    Secretary Chao. I think transit programs are very 
important. They form part of our transportation infrastructure 
and the intermodal needs of our communities and help to improve 
the quality of life for commuters. So I don't think there's any 
disagreement about that.
    The issue is how do we process the Capital Investment Grant 
(CIG) grants, and we have worked very hard to get them out as 
quickly as we can. In the first year, we did have problems with 
getting leadership in place for the Department, so that took 
some time, and I think for any new Administration coming in, 
they would want to take some time to understand the programs 
and make sure that the new Administration's goals and 
objectives are incorporated into these new programs, as well.
    So that is what has happened, and we have always wanted to 
work with Congress on the CIG, but it's hard to answer 
questions on a hypothetical basis because a lot of these 
programs, also, they have their--sometimes it's not us. There 
are other programs that perhaps are not ready. They're moving 
from one stage to another.
    So we do this on a case-by-case basis, but I think we all 
agree that this program has its purposes. We understand the 
will of Congress, and we hope to--I think we've done actually 
pretty well, better than I think you told us, but----
    Senator Reed. Well, this new Administration should be 
reaching its stride now. Can we expect, that all of the funds 
that we've appropriated, and, as I said, it's the largest 
amount of funding for CIG, in the history of the program, will 
be expeditiously deployed so that next year this question will 
not be before us because you will have awarded all of the 
funding?
    Secretary Chao. It is my goal to do the will of Congress.
    Senator Reed. Thank you.
    Secretary Chao. So you have given us the money and we're 
going to look at these specific projects, and I hope they'll be 
ready.
    Senator Reed. Thank you.
    Just another question, somewhat related to transit, is that 
we've had a great debate about the Northeast Corridor, the 
rebuilding of it, and this year, the focal point was the Portal 
Bridge in New Jersey.
    Some people have dismissed that as a local project, but 
living in Providence, Rhode Island, at least Jamestown, Rhode 
Island, Cranston, Rhode Island, the Northeast Corridor is a 
regional-national-international thoroughfare. New York is not 
the financial capital of the world because people can't get 
there.
    So I would hope that we could go ahead and move forward 
with the money that's been specifically provided to make these 
improvements not just to the Portal Bridge but the Northeast 
Corridor. Is that something that you are going to do 
expeditiously for us?
    Secretary Chao. I always want to do things expeditiously, 
but, unfortunately, the North Portal Bridge did not receive a 
good rating. So that is what is holding that one up. It's 
actually not eligible to advance--to go further in the funding 
process.
    Senator Reed. And where are they failing in their rating, 
Madam Secretary?
    Secretary Chao. It's on the financing and actually it's a 
rating that we don't do. It's actually done by the career 
staff.
    Senator Reed. I'm under the impression that the State and 
localities are putting out 50 percent----
    Secretary Chao. 21 percent.
    Senator Reed. We're told.
    Secretary Chao. Well, actually, they're putting up 21 
percent. They're using RRIF and TIFIA loans, but they're using 
our funds as part of their equity, and this is a perpetual 
disagreement on how to work this project.
    Senator Reed. It is, but this is a critical part of the 
infrastructure of the Northeast Corridor, not just this project 
but there are many other projects, and I would guess that this 
is not the first time that in transportation projects multiple 
sources, including multiple Federal sources, have been used.
    So I would ask you to look carefully again and see if we 
can get this project moving, and, again, I represent Rhode 
Island, but it will have an impact on my constituents if they 
can't get into New York and out of New York.
    Thank you, Madam.
    Senator Collins. Thank you, Senator Reed.
    Senator Murray.
    Senator Murray. Well, thank you very much, Chairman Collins 
and Ranking Member Reed, and let me, before I start, I just 
want to thank both of you for your really hard work on the 
fiscal year 2018 Spending bill. It was a bipartisan compromise 
and I really appreciated you rejecting the harmful policies and 
making significant new investments. It made a difference to my 
state and we appreciate the work that you did.
    Madam Secretary, I want to follow up on Senator Reed's 
questions on the CIG Program because that is critical to all of 
our states and I was really pleased with Monday's announcement 
on the $43 million grant to Community Transit for Swift Bus 
Rapid. That was good news, but, as we talked about, it was long 
overdue, and we also talked about the Lynnwood Link Extension 
and the Tacoma Link Extension.
    Here's the thing. These transit agencies have worked in 
good faith for years with DOT. Congress provided the Federal 
funding and yet projects like these and across the Nation, as 
you heard, have been stalled at DOJ.
    You told this subcommittee last year you would follow 
congressional direction and execute these CIG grant agreements 
that have received Federal funding and I have to say a lot of 
us are still frustrated and I heard you just answer Senator 
Reed that you will follow the law and advance these CIG 
projects through the grant agreements as directed by Congress, 
correct?
    Secretary Chao. Yes.
    Senator Murray. Specifically, on the Lynnwood Link 
Extension, will you commit to moving forward with their full 
funding grant agreement?
    Secretary Chao. What is the question?
    Senator Murray. It's the Lynnwood Link Extension that we 
talked about. Its ready.
    Secretary Chao. I probably should be more familiar with 
that. I am not.
    Senator Murray. Could you get me an answer on that, and a 
timeline?
    Secretary Chao. I can't promise anything. It's on a case-
by-case basis. So if it's ready----
    Senator Murray. It is ready.
    Secretary Chao. And it is--there's funding available, then 
we will certainly take another--we will take a look.
    Senator Murray. Okay. If you could get back to me on a 
timeline on that?
    Secretary Chao. Sure.
    [The information follows.]

    The project sponsor has remaining steps to complete before the 
Lynnwood Link project can be considered for a Full Funding Grant 
Agreement, including obtaining all funding commitments.

    Senator Murray. And similarly on the grant agreement for 
the Tacoma Link Extension, can you give me a timeline for that 
one?
    Secretary Chao. Of course.
    [The information follows.]

    As proposed projects become ready for a funding agreement 
commitment, FTA considers each project on its own merits and advances 
them through the process as appropriate. The Tacoma Link Extension was 
sent for Congressional review.

    Senator Murray. So you will follow up with me? Okay. I 
appreciate that.

                SEXUAL HARASSMENT OF AIRLINE PASSENGERS

    Last year, I shared with you a story from a constituent of 
mine who bravely told me about being sexually assaulted on a 
long distance flight. In the past year, I've heard more and 
more disturbing reports of sexual assault and sexual harassment 
that occurs on airplanes, and the Association of Flight 
Attendants conducted a survey of nearly 2,000 flight attendants 
and found that one out of five flight attendants have 
experienced a report of passengers on passengers on sexual 
assault while they were working on the flight and the more I've 
looked into this, the clearer it has become that there's really 
a serious lack of guidance on adequate responses to in-flight 
sexual assault and growing support for addressing this problem.
    So I introduced legislation, the SAFE Act, with Senator 
Casey and I worked with this subcommittee, and I thank them for 
this, to include language in the fiscal year 2018 Spending bill 
to take a step forward and specifically we directed DOT and FAA 
to establish Federal rules and guidelines to make sure that our 
flight crews can properly respond and address sexual assault 
and harassment when it happens on the airplane, including 
training and reporting and data collection.
    This has to be done within a year, deadline of March 23rd, 
2018. Are you aware of this, and are you working on it?
    Secretary Chao. I'm aware of it because you are aware of it 
and so you have brought this up on a number of occasions.
    First of all, let me say I think that is horrible what--
these incidents and so we need to be very vigilant and we need 
to do something about that and so we've just gotten the 
instruction from the Omnibus and that was just last week. So, 
of course, we will proceed.
    Senator Murray. Okay. The deadline's March 23rd, a year 
from now, so I want you to work on meeting that deadline.
    And the first step in that is creating the National In-
Flight Sexual Assault Task Force. I know you just got it, but 
are you starting to work on how to put that together and how to 
establish it?
    Secretary Chao. As I mentioned, we just got the $12 
billion, plus all of the Omnibus requests and requirements, and 
we're in the process of going through them and going forward.
    Senator Murray. Okay. I'll be following that very closely.
    Secretary Chao. Of course.
    Senator Murray. So I look forward to hearing from you on 
that.
    And, finally, in the last few seconds, I know that the 
Chairman talked about the TIGER Program. This is an incredibly 
successful program. For every Federal dollar invested, TIGER 
generates $3.6 of additional investment from private, State, 
and local resources.
    I am concerned about the execution of this. Congress does 
provide the guidelines for the TIGER Program. It's in law, and 
I want to make sure that you follow the congressional intent on 
this. It's very clear. The rules are very clear, and we want to 
make sure that this is given equitably across the country as 
established in the guidelines.
    Secretary Chao. Of course, it is my intent to carry out the 
wishes of Congress.
    Let me also point out, though, even with the best of 
intent, there are very, very tight timelines, but, of course, 
we will try to meet those deadlines.
    I might also bring up another point and that is a lot of 
these TIGER grants are actually taken out. They're implemented 
by the Policy Office and in the past, the Policy Office was not 
an operating unit. So with the FAST Act and all the money 
that's going through the Policy Office, I might just ask 
members of this committee to take a look at whether that is the 
right place for----
    Senator Murray. Well, one of the reasons it was done that 
way was to make sure that there was equitable distribution of 
funds and appropriate balance in the country to meet rural and 
urban needs and investment in a variety of transportation 
modes, which we felt was really important parameters to put 
into it. So, you know, I'm happy to talk to the Chairwoman, but 
I think it's really important that we keep the guidelines.
    Secretary Chao. Well, perhaps we can talk about that, too.
    Senator Murray. Thank you.
    Senator Collins. Senator Blunt.

                        ENVIRONMENTAL PERMITTING

    Senator Blunt. Thank you, Chairman.
    Secretary, it's great to see you here. I think I want to 
get into a couple of topics here quickly.
    One is just on the process of permitting. I want you to 
talk a little bit about the Memorandum of Understanding that 
creates a lead agency, as I believe it to be the case. We got a 
couple of Surface Transportation Board members before the 
Commerce Committee today or potential board members to be 
confirmed and one of the things we mentioned there was some 
Commerce language over the last couple of Congresses in the 
Highway Bill and the Railroad--relates to railroads, as well, 
where you're replacing things that are already there.
    Obviously the law, I think, now recognizes that obviously 
the impact process should be a lot less to put something right 
back where something already was than to build something for 
the first time, but generally any thoughts you might have on 
how that Memorandum of Understanding would work where they'd be 
a lead agency and how we get away from an environment where it 
takes three to five times as long sometimes to get a project 
approved as it does to build the project.
    Secretary Chao. Well, Senator, you have expressed this 
concern about the delays in construction of new highways, 
bridges, and you're, of course, very vigilant about your own 
state and the delays that have taken place there, as they do 
all across America.
    So something needs to be done and yesterday, the President 
announced the One Federal Decision, which is the culmination 
of, as you mentioned, a Memorandum of Understanding between 16 
different agencies within the Federal Government whereby one 
lead agency will be given the responsibility to coordinate and 
corral other agencies to a particular project.
    Not all projects will come under the Transportation 
Department. So it will depend on which lead agency will take 
the responsibility and that will make a big difference, but 
because the Transportation Department is much more focused on 
construction of projects, we probably would be much more likely 
to focus on the construction and the timeline of projects than 
some other agencies.
    But I think with this new Memorandum of Understanding, 
there's a much better process in place to select one agency to 
expedite a lot of these permitting delays and when I talk about 
permitting delays, we are not leapfrogging or compromising on 
any standards at all but to take a look at the process by which 
permitting occurs and can we not have the process be more 
commonsensical, avoid duplicative processes, and require that 
processes occur concurrently rather than sequentially.
    In the Department of Transportation alone, there's also an 
inability to share surveys and information among sister 
agencies. So one mode can be conducting a study and another 
mode is going to have to conduct the same study and they can't 
share information.
    Senator Blunt. Will that be eliminated by the lead agency 
concept?
    Secretary Chao. We certainly hope so, that that will be 
improved, and then certainly this is within one department, so 
you can imagine what happens throughout the whole government, 
throughout all these Executive Branch agencies.
    Senator Blunt. And while you're concurrent, the lead 
agency, as I understand from what you're saying, in a position 
where they can encourage concurrent efforts going on in all the 
agencies involved.
    What if you have an ultimate foot-dragging agency that just 
can't seem to come to a conclusion that everybody else has 
already come to?
    Secretary Chao. The lead agency----
    Senator Blunt. The lead agency decide that, well, we're 
moving forward?
    Secretary Chao. The lead agency decides.

                       RURAL INFRASTUCTURE NEEDS

    Senator Blunt. And on rural infrastructure, I know in every 
discussion I've seen so far, the Administration's proposed a 
significant percentage of all of those discussions, whatever 
the amount of money was talking about to go to rural 
infrastructure.
    Just generally, your sense of the challenge of rural 
infrastructure compared to other infrastructure.
    Secretary Chao. Well, rural America has been long neglected 
for decades and when people talk about rural infrastructure, 
it's not as if only people who live in rural America use these 
roads.
    I mean, we have roads lead from one place to another. So 
people transiting from one place to another through rural 
regions will also use those roads, and in the past, there have 
been--it's been as low as seven percent, the percentage of 
funding that rural roads and bridges received.
    So at this point, we are just talking about catch-up and we 
are talking about equity and fairness. Rural America has a 
lesser number of people but a disproportionately high number of 
accidents, traffic accidents, and so we need to address those 
issues with better infrastructure, with repairing and restoring 
our rural infrastructure.
    Senator Blunt. Good. I appreciate that. I would just say 
for your staff to think about. In Missouri, we have 3 percent 
of the rural population. We have 4 percent of the rural road 
mileage in our State, and I think we have more bridges than any 
other State. I know we'd be in the top two or three. We've got 
one county that has 4,000 people, our very smallest county, and 
it has 40 bridges. So without the cost bridge-sharing program, 
there's no way that that county could begin to think about 
maintaining half the bridges they currently have, let alone 
take care of the 40 bridges they currently have.
    Thank you, Chairman.
    Senator Collins. Thank you, Senator.
    Senator Murphy, you're next, but I wondered if you would 
like to wisely yield to your Ranking Member of the Full 
Committee, who has a very brief statement he'd like to make.
    Senator Murphy. I appreciate you believing that I am wise. 
Certainly.
    Senator Leahy. Your fellow Irishman appreciates it.
    First off, I would say, Madam Chair, that I'm not in any 
way asking funds for the same dirt road that goes by our home 
in Vermont where my wife and I spent part of our honeymoon 56 
years ago. It's been the same dirt road for 56 years ago. So 
right now I'm not looking for any funds for that road.
    But I have a lot of other roads. We fought very hard for 
transportation programs, Republicans and Democrats worked 
together on the Appropriations Act. We worked with the White 
House, had an agreement with everybody on it. The President 
signed the Budget Agreement.
    The press now reports that he's changed his mind, having 
agreed with us with this, and he's going to send a package of 
rescissions. I'm of the school that you make an agreement, you 
stick with it.
    The Administration has said and you've certainly said 
eloquently the need for infrastructure improvement. The 
President hasn't sent us a plan, a real plan, but we increased 
funding, Republicans and Democrats working together, for an 
infrastructure needs to increase it by at least $18 billion. 
Funding for TIGER grants, for example, is going to help 75 more 
communities across the country that will create an additional 
13,000 jobs just that, the TIGER grants.
    It increased investments in the Federal Highway 
Administration, 33,150 jobs. The highways and bridges, et 
cetera, that Blunt spoke about, and it's going to help with 
those. Of course, you can go on with a whole lot of others, the 
air transit, and so on.
    Are you going to recommend to the President that he rescind 
any of this infrastructure investment?
    Secretary Chao. I don't think so.
    Senator Leahy. I hope you don't. We'll certainly back you 
if you don't. I just want you to know that. We have a lot of 
funding in here for rural areas, which really get hurt. They 
don't have the population but, again, those roads do connect 
with other roads that go to heavy populations.
    Will you ensure that both rural and urban see across-the-
board increase in infrastructure investment?
    Secretary Chao. Yes.
    Senator Leahy. Thank you. I couldn't ask for anything 
clearer.
    And requiring states to secure private funds for 
infrastructure programs was in the President's earlier 
speeches. That, of course, creates a problem. You have a 
private investor, they require return on investment, which is 
only right, but you can't build a toll road in rural Missouri 
or Maine or Vermont or any other State.
    Has your department done any analysis if it's even viable 
to attract or secure private funding in rural areas?
    Secretary Chao. We don't think that it would be viable for 
the private sector to invest in rural areas because of the lack 
of density. We've never said that the public-private 
partnerships work in all instances and for rural America, there 
will have to be another approach.
    Senator Leahy. Well, I agree with you, and I must say I'm 
delighted to hear you say that as one who voted for your 
confirmation. I'm even happier to hear what you said.
    Thank you very much. Thank you, Madam Chair.

                        FUNDING TRANSIT PROJECTS

    Senator Collins. Senator Murphy.
    Senator Murphy. Thank you very much, Madam Chairman. Thank 
you for being here, Madam Secretary.
    I wanted to actually follow up on some of the line of 
questioning from Senator Reed. I feel like Senators Booker and 
Menendez should pay us a fee for asking multiple questions 
about the Portal Bridge, but we actually believe that it is in 
our interests as well as New Jersey's and the country's in 
order to make the investment in the Northeast Rail Corridor and 
so I just wanted to sort of get the facts straight here.
    When states take out TIFIA loans, they are required to pay 
those loans back to the Federal Government and so what you are 
saying in this case is that you don't count the TIFIA loan as a 
substantial State commitment because in the Portal Bridge case, 
$29 million is gas tax revenue from the State, 336 million is 
economic development funds from the state, Port Authority is 
kicking in $21 million, and the rest of their share is a $284 
million TIFIA loan, which gets you to about 50 percent.
    But you are saying that even though they have to pay that 
money back, you don't consider that a state contribution. I 
just don't understand that.
    Secretary Chao. No, we don't.
    Senator Murphy. Why not?
    Secretary Chao. And it hasn't been, and I'll give you an 
example. If you were to buy a house, you had to put 20 percent 
down, 80 percent is a mortgage from the bank. You go to another 
bank or you go to the same bank, you get a home loan or 
whatever for 20 percent, you use that 20 percent loan, which 
you're going to have to pay back anyway to either one bank or 
another, and you use that as your equity, Dodd-Frank wouldn't 
even allow that.
    Senator Murphy. But that's apples to oranges because--
    Secretary Chao. Oh, no.
    Senator Murphy [continuing]. In that----
    Secretary Chao. How can you borrow another loan to make 
your equity payment?
    Senator Murphy. The reason the banks don't allow you to do 
that is because it is a sign of your ability to repay, whether 
or not you have the substantial money to make a cash down 
payment, but in this case, I don't think there's a question as 
to whether the states are going to repay the TIFIA loan.
    You don't think the states aren't going to repay the TIFIA 
loan, right?
    Secretary Chao. Well, it depends on the economic forecast 
and whether the traffic is high enough and, indeed, if it turns 
out that there is enough traffic, then actually if you work out 
the economics of the Portal Bridge and even the Hudson Tunnel, 
there's quite a lot of traffic that actually would make the 
argument that that can actually be financed by the local and 
State government.
    Senator Murphy. Right. But you wouldn't make the TIFIA loan 
if you didn't think that the money was being paid back. In this 
case, you've made a commitment to make the TIFIA loan. So if 
you're questioning the underwriting of the loan, then you 
wouldn't have made the loan.
    Secretary Chao Its an added risk. It's an added layer of 
risk. Yes, hopefully when you make that loan, they will be able 
to repay it.
    Senator Murphy. Has a State ever defaulted on a TIFIA loan 
or a RIF loan?
    Secretary Chao. Well, that's why the private sector likes a 
lot of these infrastructure projects because the collateral 
doesn't go away.
    Senator Murphy. So you are requiring the States to come up 
with cash----
    Secretary Chao. I don't think it's----
    Senator Murphy. Of 50 percent----
    Secretary Chao. Or some other form that's not our own 
money. When we're giving them the money--and we're giving them 
50 percent supposedly, let's say, and then they're asking for 
another 50 percent, which we are lending to them, so we're 
giving a hundred percent----
    Senator Murphy. Right.
    Secretary Chao. And there's no skin in the game for them.
    Senator Murphy. Right. But that's not true. They are paying 
back that money over time.
    I guess the frustration is that in a very cash-strapped----
    Secretary Chao. They're paying both parts.
    Senator Murphy. In a very cash-strapped environment for 
states, at a time when you've taken away the ability of 
property tax and income taxpayers to deduct that from their 
Federal taxes, it seems that this is a win-win. The Federal 
Government has the ability to loan the money and have the money 
repaid whereas States don't have the ability because they all 
have balanced budget requirements to come up with the cash up 
front.
    So given the fact that a TIFIA loan has never defaulted, 
that a state has never not repaid the Federal Government----
    Secretary Chao. I don't think that's true actually.
    Senator Murphy. Well, I don't. I'd be happy to see--
    Secretary Chao. Whether a State has ever defaulted.
    Senator Murphy. Right. It seems like it's a creative way to 
help make investments in the Corridor because absent this, I 
don't see the plan to be able to repair these very damaged 
sections of the Corridor.
    Secretary Chao. You can take a look at the two surrounding 
States to us. Virginia, again a very innovative, creative 
governor. The I-66 projects that we just saw here, it provided 
significant private sector funding, resulting in a ratio of 35 
percent Federal funding, 65 percent non-Federal funding, and in 
the Purple Line here, that also received significant support 
from Maryland, resulting in a ratio of 75 percent Federal, 25 
percent non-Federal.
    So these deals can come together, but it's not with our own 
money.
    Senator Murphy. I hear you about concerns that the money 
will be repaid, but if that's the concern, then let's make sure 
that there are real pledged dollars behind the TIFIA loans, not 
just completely rule out the ability for this to be a source of 
matching funds.
    So I've gone over my time. Thank you, Madam Chair.
    Senator Collins. Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    It's good to see you again here today, Secretary Chao. I 
want to thank you for appearing before this subcommittee to 
testify on behalf of the President's fiscal year 2019 Budget 
Request.
    I know you have a very busy schedule. I do hope sometime I 
can get you to come out to Montana where you can see firsthand 
how important rural transportation infrastructure is to our 
national and global connectivity.
    My ancestors came out to Montana on the Empire Builder. 
Amtrak's Empire Builder currently serves 12 communities along 
Montana's High Line, which otherwise wouldn't have access to 
public transportation. Amtrak completed a study that showed 
that if we added a stop in Culbertson, Montana, it would 
actually generate a net positive financial impact of more than 
$775,000 for Amtrak and would not add any additional time to 
the schedule. It sounds like a pretty good proposal.
    I've worked on this issue with the previous Administration 
and my staff remains in constant contact with the local 
community to help make this stop a reality.
    What could you do to ensure that places like Culbertson, 
Montana, which are a long ways from anywhere, which would 
provide financial benefit and have a demand to sustain 
services, so they can grow their connectivity?
    Secretary Chao. I understand how important Amtrak is in so 
many of these rural communities. Unfortunately, Amtrak also 
loses about $500 million a year and so there's always that 
balance.
    Amtrak is a separate organization. I'm sure you've talked 
to the new president, Richard Anderson.
    Senator Daines. And, by the way, he's doing a great job, 
Richard Anderson. I'm just proud of what he's doing there about 
volunteering and taking his expertise from Delta Airlines now 
to Amtrak.
    Secretary Chao. Yes.
    Senator Daines. So that's a real plus for our country.
    Secretary Chao. So he has, and he's leading the 
organization and reviewing its operations.
    So on something as operational as a stop or a route change, 
it is really up to Amtrak to make those decisions. We will work 
with Amtrak and we certainly want to work with your state, 
given your special concerns about this particular point, on how 
we can increase access for your constituents.
    Senator Daines. Yeah. Thank you, Madam Secretary. We just 
were surprised and pleased to see that we actually showed a net 
financial benefit as well as no time lost. So we'll continue to 
work with you and with Richard, as well.

                     FEDERAL CONTRACT TOWER PROGRAM

    Switching gears and now talk about air travel, my home 
airport is Bozeman, Montana. It's the busiest airport in the 
state and is part of the Federal Contract Tower Program. Their 
tower is not operational 24 hours a day and they handle more 
operations and more passengers than airports of similar size 
and yet they have one-third of the employees. In some 
instances, they've had to use their own funds to pay for 
additional staffing hours.
    What steps can you take to ensure the airports, these 
Federal Contract Tower Program airports, airports like Bozeman, 
were able and are able to maintain adequate staffing to meet 
the safety needs of passengers flying into and out of my State?
    Secretary Chao. Well, first of all, I am a great proponent 
of contract towers. We think that they are necessary. They 
provide greater safety, and I have to confess I actually 
prepared an answer for your question, but I cannot remember it 
at this point. So let me get back to you on that.
    We are very concerned and I think you will be pleased with 
our answer. We want to work with you.
    [The information follows:]

    The FAA monitors staffing at all 254 contract towers to ensure that 
adequate staffing levels are maintained. The FAA will consider a 
request for increased staffing and longer hours of operations when the 
traffic at the airport during the time the facility is closed averages 
more than four operations an hour over a representative 90-day period 
or special operational or user requirements warrant increasing the 
operating hours.
    The Contract Tower Program operates under a reduced staffing 
concept, which has proven to be a safe, cost effective and efficient 
way to provide air traffic control service to smaller airports across 
the country.

    Senator Daines. We'll work with you on that because we are 
literally gateway Yellowstone National Park and so we have a 
tremendous amount of tourism travel in and out of that airport 
as well as Bozeman's the fastest-growing micropolitan area in 
the United States, which is 50,000 people or less.
    So it's been my hometown since 1964. It's growing rapidly, 
and we just had a few little hiccups there and concerns about 
staffing certainly. We'll work with you on that, Madam 
Secretary.
    I've also heard, speaking of other airports across my 
State, most notably Helena Kalispell, as well as Bozeman, 
they've had concerns about air traffic control towers not 
staffed during all regularly scheduled flights.
    I can tell you in a place like Montana where ground 
operations, such as snow removal, and we've had a lot of it 
this winter, can take place while these towers are non-
operational, and that does present possible safety hazards.
    What are you doing in your organization to ensure that the 
air traffic system is adequately serving the safe operations of 
aircraft movements each day when there are processes in place 
to consider changes to hours of operation for air traffic 
control towers when needed?
    Secretary Chao. Finished?
    Senator Daines. Yeah.
    Secretary Chao. Well, as mentioned, I think contract towers 
are important. They fulfill a need, and many times when there's 
not the full-blown air traffic control that's available, the 
contract towers fulfill an important aid for rural America.
    You're asking, I think, also about air traffic control 
overall.
    Senator Daines. Yeah. We've had some situations, and I 
agree with you. The contract program is something we ought to 
try to continue to make work.
    Secretary Chao. Of course, yeah.
    Senator Daines. I think there's been some success.
    Secretary Chao. And for us, we will always try to fund it 
fully.
    Senator Daines. Right. Yeah. We just had--and we'll work 
with your team. We've had some gaps in coverage. I've engaged 
with our airport manager, our board there. Somebody who uses 
that airport all the time, has many Montanans do, we've had 
some challenges there, and we'll continue to work with your 
team, Madam Secretary, her to address those issues.
    Secretary Chao. I'm very much aware of this. In fact, I 
have the question here.
    Senator Daines. Yeah.
    Secretary Chao. So I'm very much aware that this is a 
concern with you and I think we're going to be very 
cooperative.
    Senator Daines. Okay. All right. Looking forward to working 
with you.
    Thank you.
    Senator Collins. Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank you, 
Madam Secretary. It's good to be with you, and I know we both 
agree on the investment in infrastructure, how important it is, 
and it's not a political football. It's basically an American 
problem that we all have and we're working together on that.
    But I know Senator Capito and I, we share the same concerns 
that we have in our State. Small rural States really have 
certain significant problems, a little bit different to urban 
areas, but we have projects, like King Coal Highway, Coal Field 
Expressway, Corridor H, Yaeger Airport, some of these things 
we've been working on for quite some time. You all have been 
very attentive and we appreciate that, but we've just now got 
to complete some of these projects.
    Speaking on Amtrak, I know I've talked to you, I just spoke 
to Richard Anderson and I agree. He seemed to be very 
cooperative, very understanding, and very willing to work.
    The Cardinal Line travels through Southern West Virginia 
between, as you know, Washington and Chicago. It travels 
through towns like Hinton, Charleston, and Huntington. 
Unfortunately, Amtrak recently announced with no prior notice 
to affected companies they will no longer operate charter 
services or special trains.
    I understood--he gave me the reasoning concerning on some 
people with these very wealthy people with private cars. We 
don't have very wealthy people with private cars in West 
Virginia. We have Railroad Days Festival. The Hinton and 
Huntington Project, it's a tremendous revenue. It's been going 
on for 51 years. They don't know if they can continue now.
    We have groups, like the Kiwanis, Lions Club, that are 
depending on these times that they operate, peak seasons of 
tourism, and Richard told me that he would be very sympathetic 
to looking at a case-by-case.
    I just want you all to understand in some of these 
situations, especially in rural America, rural West Virginia, 
this is a lifeblood to some of these people. We have the 
Collins P. Huntington Railroad Historical Society----
    Secretary Chao. Yes.
    Senator Manchin [continuing]. Which is very dependent upon 
that, and it's just something that's very educational but it's 
very rewarding and it's also economic and vital for the area.
    So I would like--I don't know if you all knew about the 
decision that was made.
    Secretary Chao. I don't know. I didn't know about it prior 
to being briefed for this hearing.
    Senator Manchin. Sure.
    Secretary Chao. I think you are----
    Senator Manchin. We're working with Richard.
    Secretary Chao [continuing]. Talking to Richard about this.
    Senator Manchin. Yes.
    Secretary Chao. We will reinforce also.
    Senator Manchin. We don't know what the waiver process is. 
So I know both of our staffs will be working through the waiver 
process, making sure that this was of high priority. We're not 
asking for accommodations just for one person or a special 
group.
    Secretary Chao. Right.
    Senator Manchin. This is a period of time that they either 
make it or break it and it's been going on for 51 years. So 
it's not a Johnny-come-lately.
    The other thing I wanted to talk to you about--so I hope 
your attention can be drawn towards that for the Amtrak, for 
especially the Huntington Hinton Railroad Festival Days.
    Corridor H. Corridor H is a corridor that John Kennedy made 
happen and I'm taking you back a ways. We still haven't 
completed it, if you can believe that. We still have not 
completed it. We still have, I think, about 20 some miles left. 
It costs $330 million. I'm understanding that's the estimate to 
complete Corridor H in West Virginia. The State's willing to 
put up $90 million to do that, which is 26 percent of the cost.
    I don't know with the new Infrastructure bill, we have not 
seen that, but, you know, we've got some priorities that really 
have to take care of but we can't even finish what's been going 
on for well over 50, almost 60 years now. It's just ridiculous. 
So I don't know how you can help us on that.
    The Appalachian Regional Commission, we've worked with ARC, 
and we're hoping that we can use that to facilitate this, but 
the state's willing and they do have skin in the game. That's a 
substantial amount and they're willing to do that, but they 
were trying to get some type of a planning done here that we 
can get that accomplished.
    Also, the criteria for the Federal grants, like TIGER and 
INFRA, to reward States for making this much investment, I'm 
willing to step to the plate.
    The regional airport that we have, our main airport in West 
Virginia is our Charleston Airport, Yaeger Airport, and the 
expansion going on there. You all have been helping us there 
because--which is our overrun. You all have helped there, but 
this next extension, we cannot be able to service the traffic 
that we need coming into there for the hub of our capital city 
and also our State.
    I don't know if you all have been made aware or up to speed 
on that, if your staff has been, and how you can accommodate us 
with that.
    Secretary Chao. Well, you have a whole list of issues and 
so we want to work with you.
    [The information follows:]

                 APPALACHIAN DEVELOPMENT HIGHWAY SYSTEM

    FHWA is committed to Appalachian communities and the 
completion of the Appalachian Development Highway System 
(ADHS). Since the enactment of the Transportation Equity Act 
for the 21st Century (TEA-21) in 1998, funding for ADHS has 
been provided from the Highway Trust Fund and apportioned to 
the 13 designated Appalachian States based on an estimate to 
complete 3,090 miles of ADHS. Currently, approximately 90 
percent of the ADHS is open to traffic. Approximately $1 
billion in unobligated ADHS funding remains available to these 
13 States to complete the system. Additionally, States can use 
Surface Transportation Block Grant Program funds, and, in 
certain cases, National Highway Performance Program funds, for 
ADHS projects.
    The Consolidated Appropriations Act, 2018 also appropriated 
$1.98 billion in formula funding to the States to be used for 
construction of highways, bridges, and tunnels, including 
designated routes of the Appalachian Development Highway System 
and local access roads.
    In addition to funding, FHWA has been supporting States in 
coordination with the Appalachian Regional Commission by 
introducing tools, expertise, and financing to help explore and 
possibly implement innovative strategies to deliver costly and 
complex ADHS projects, such as Corridor H in West Virginia.

                             YEAGER AIRPORT

    In fiscal year 2017, the FAA issued a $13.1 million AIP 
grant to improve the Runway Safety Area. In fiscal year 2018, 
the airport requested funds to complete the project. The FAA 
supports this project and understands the importance of 
completing the project providing an improved Runway Safety 
Area.
    Also in fiscal year 2017, the FAA issued an AIP grant to 
update the airport's Master Plan. The FAA is working directly 
with the airport sponsor in this master planning effort to 
determine the current justified runway length, which could 
include a runway extension, as well as the long-range planning 
needs at the airport. Once a recommended alternative is 
selected, the next step is to begin the environmental review of 
the proposed action. The airport currently shows a funding 
request for the environmental review in fiscal year 2019.
    The FAA recognizes the significance of Yeager Airport to 
the state of West Virginia and to the national system of 
airports. We will continue to work with the airport sponsor to 
support their planning and funding needs.

    Senator Manchin. I'm sure that my dear friend and colleague 
will second that and probably has her own, but we both--this is 
one thing. The needs of our little State, rural States have so 
much. Shelley and I work very close together and our staffs 
work very close together because without some assistance and 
some help, rural America, as you said yourself, only percent is 
getting helped. 93 percent's going to the largest areas that 
have the wherewithals to help themselves a lot more.
    We've got areas that we've got total no cell coverage, no 
broadband, and there's no way we're going to be able to develop 
unless we have this assistance and help from the Federal 
Government. So your attention to these matters and we'll give 
you everything we've got on this but we need your help.
    Secretary Chao. Thank you very much, Senator. Senator, 
we've always talked about your State and so that's why the 
President's proposal includes a 25 percent amount for rural 
America.
    Senator Manchin. Rural America. Yeah. We know that.
    Secretary Chao. It's done differently than the rest of the 
funding for other areas.
    Senator Manchin. I know there's a lot of new projects that 
people are bringing to you. They want to start this.
    Secretary Chao. Right.
    Senator Manchin. We'd like to finish some that have been 
going on for so long. We never could get the assistance that we 
needed, and I think if we can work together on some of this and 
come to you with a concerted effort on how we could finish 
Corridor H, Amtrak keeping for 51 years a tradition, Kiwanis 
and the Lions Club go down, that's their main revenue, little 
things like that.
    I know what you're trying to do. He says--he was very--
Richard says ``I got to run a railroad.'' I say ``Shelley and I 
have to keep a state running, too. We have to keep it open, and 
these little towns are depending on this.''
    Thank you.
    Secretary Chao. Well, the President--as you know, the 
President's proposal again understands these concerns about 
rural America and so that is why again 25 percent of the 
program will be devoted to rural America and their concerns.

                STATE FUNDING FOR HIGHWAY INFRASTRUCTURE

    Senator Collins. Senator Capito.
    Senator Capito. Thank you, Madam Chair, and thank the 
Ranking Member, and I thank you, Madam Secretary, and I'm going 
to go off of what Senator Manchin said. We do have a lot of the 
same concerns in West Virginia obviously and I won't repeat 
those.
    I will say in terms of Corridor H, in terms of West 
Virginia as a State's commitment, and I know you and I have 
talked about this, you know, we passed a road bond, our State 
did by 70 percent last October, I believe it was, that raised 
the gas tax and committed a lot of our own State funding to 
fixing our own infrastructure because people realize how 
deteriorated our transportation system has become.
    That was a big step for a State that has economic 
challenges. So part of--with the rural set-aside and the 
infrastructure package, I've been trying to emphasize to the 
Administration that when we get this package done, that we can 
have a retroactive look to States that have already been 
aggressive with meeting their challenges and to help you as the 
Administration with that, when I hear a State who maybe has 
challenges like Maine or Rhode Island or Hawaii, you know, we 
all have our challenges and they say, but my State can't afford 
it, my response is, well, if West Virginia can pull this off 
and get it together like we did, then I think your States 
really need to look to step up. Some States, like ours, have 
already done that.
    So I would encourage, as we look at projects, looking 
forward, something like a Corridor H project, which is already 
in the making and only has a very expensive small part left, 
it's coming from both of these ways, that we look at projects 
that are going to be completable, that already have committed 
dollars from the State or private sector, which is part of 
what, I think you're building into your infrastructure package, 
is that correct, with the private or matching dollars? I mean 
that's important, right?
    Secretary Chao. Yes.
    Senator Capito. So the other thing on the broadband issue, 
and I know that's not exactly your issue, except when we're 
doing a lot of construction in our highways, we have the 
opportunity--I don't know if somebody's asked you about Dig 
Once, and I'd like to know your opinion of Dig Once, where 
you're digging for a highway, if you can lay the fiber at the 
same time.
    What kind of challenges--I know it was included in the FCC 
reauthorization which was part of the Omnibus. I don't know if 
you have any reaction to the Dig Once proposition of really 
making our investments more efficient.
    Secretary Chao. It's only common sense. I think we all 
agree with it. It's how do we coordinate it amongst all these 
different agencies to make that happen, but we're totally in 
favor of it.
    Senator Capito. Is there an effort at this point yet to do 
any kind of coordination from your department to say FCC or 
Commerce or USDA or other agencies that are involved with rural 
broadband? Is that something that's going to be a part of a 
conversation?
    Secretary Chao. Thank you for bringing that up. We probably 
should. We will start.
    Senator Capito. I would encourage that. I know that 
Agriculture is. In the last Omnibus, we did secure more money 
for rural broadband in that bill and, as we're moving forward 
with the increase, the $12 billion increase in the 
Transportation bill, this would be a good time to really, you 
know, kind of jump on that.
    The other question I had was on TIGER grants, but I know 
you've already been asked about it, but if you wouldn't--I know 
you had an increase in that program.
    The President, I think, hadn't he zeroed that program out 
in his budget? Did he?
    Secretary Chao. In fiscal year 2019, he did, but, again, 
I'd just mention there is a disconnect. It's kind of confusing. 
We're dealing with three different budgets at this point, but 
obviously the fiscal year 2019 budget request--was submitted 
before the Omnibus.
    Senator Capito. I see.
    Secretary Chao. And so the Omnibus stands and----
    Senator Capito. Right.
    Secretary Chao [continuing]. We will see what happens next 
year.
    Senator Capito. Obviously a commitment to TIGER grants in 
the----
    Secretary Chao. Obviously, yes.
    Senator Capito. Yeah.
    Secretary Chao. The popularity of the TIGER grants is very 
well-made known to us very well.
    Senator Capito. Yeah. Good. Also in the airport, Senator 
Manchin mentioned Yaeger Airport. I just want to thank you and 
the department and the FAA for working with our airport to 
rebuild our EMS system that collapsed on us unfortunately. We 
just had a ribbon-cutting from that, and I know you all worked 
hard to make sure that that works and so it's under progress 
with a local contractor. So we're very happy about that. That 
will help us with the viability of the airport and it's already 
stopped one plane and saved--it did stop one plane previously 
and saved, I think, 30 lives. So it's important when you've got 
an airport on the top of three mountains. It's important if 
you're not going to stop, somebody helps you stop. So thank 
you. Thank you for that.
    You know, other than that, I don't have any other 
questions. Just thank you very much. Thanks for dedication to 
rural America. Appreciate it.
    Secretary Chao. Thank you.
    Senator Collins. Senator Schatz.
    Senator Schatz. Thank you, Madam Chairwoman. Secretary, 
thank you for your partnership for Hawaii transportation 
projects.
    I want to talk first about the big picture, the 
Infrastructure Program that you've been advocating for, and I 
want to propose to you something and get your response and 
that's this that we actually don't need to invent new 
infrastructure programs, projects.
    We have great programs within the Department of 
Transportation. We've got TIGER. We've got Capital Investment 
Grants. We have highway funding. We have aviation grants. All 
of those actually work, and you have the existing statutory 
staff process infrastructure in place. States work well with 
the Federal Government in these instances, and really what we 
need to do is just put more money into each pile.
    I mean that is the traditional way to do an infrastructure 
program, and I'm afraid we're outsmarting ourselves by trying 
to configure something new when what we have is programs that 
work but are, generally speaking, underfunded when you match 
them up against the needs nationwide.
    So I'd like your comment on the efficacy of just putting 
more money in each of the lines that you're in charge of.
    Secretary Chao. I wish I could--I understand what you're 
saying, and I was--the whole Department is really devoted to 
carrying out the will of the Congress, and I think the Omnibus 
is very clear as to what the priorities of the Congress are.
    We want to get out the money as quickly as possible. Going 
back to when we first started in the Administration, I mean, 
there was just a lack of leadership. So I think that was a 
major reason why things didn't get out, but it's quite clear 
what the Congress wants and we hope to--we're working very hard 
to distribute the funds as instructed within the timeframe. But 
as I mentioned, the timeframe's really, really tight.
    Senator Schatz. Sure. And just one final comment on this 
particular question. I think as you search for bipartisan 
support as it relates to infrastructure, I think traditionally 
infrastructure has been done on a bipartisan basis because of 
the cloture rules in the Senate and because until relatively 
recently, infrastructure was always a bipartisan priority until 
about 10 years ago, and so I again think we may be outsmarting 
ourselves and what we just need to do is get together, decide 
what the priorities are, and fund them rather than configure a 
new statutory infrastructure.
    When the Department of Transportation--nobody's complaining 
about the way it works. They're complaining about the lack of 
funding.

                            DOT RULEMAKINGS

    In the interest of time, I wanted to cover two other 
questions. The FAA reauthorization in 2016 directed the 
department to develop regs that would require air carriers to 
refund baggage fees for baggage delayed over 12 hours and allow 
for adjoining seats for families traveling with children under 
the age of 13. The rules were supposed to be finalized by July 
of 2017.
    Can you give me an update on the status of those rules?
    Secretary Chao. I should be able to and so if you wouldn't 
mind, let me do that, because we actually have discussed it and 
we've been looking at current regulations and seeing how far 
they cover and seeing whether these requested new changes, what 
they would entail, what their implications are. We're working 
on it. We don't have a conclusion on that yet. If you could 
just let me go back and we will ask for the timeline.
    [The information follows:]

    In response to the 2016 FAA Authorization, DOT issued an Advance 
Notice of Proposed Rulemaking soliciting public comment and feedback on 
requiring airlines to refund fees for delayed bags on flights within, 
to and from the United States. We plan to issue the NPRM this year. 
Consumers may, of course, seek reimbursement for damages caused by 
delay in the delivery of their baggage by filing a claim with the 
airline. DOT already requires airlines to compensate passengers for 
reasonable expenses that result due to a delay in baggage delivery. In 
addition, the Department currently requires that airlines refund fees 
for lost bags.

    Senator Schatz. Sure. And in previous appearances before 
the committee, you had committed to evaluating the practices of 
overbooking and report back on the findings and proposals to 
protect consumers from these practices.
    What information do you have and what actions do you think 
are necessary either at the rulemaking level, at the procedural 
level, or at the lawmaking level to deal with overbooking?
    Secretary Chao. These are all part of an analysis about 
consumer complaints. We have, as you well know, an Aviation 
Consumer Complaint Bureau, and we're looking at all of these 
issues, especially because certain members, not only of this 
committee, have asked us as part of the Omnibus to take a look 
at all of this, as well.
    Senator Schatz. Final question. I know you are working very 
hard on streamlining processes in terms of Federal permitting 
and I think a lot of us can get behind this, whatever our views 
are on various environmental or other regulations, but we have 
a Federal Permitting Improvement Steering Council and it lacks 
an executive director, and I'm wondering what the status is of 
appointing an executive director to make sure that's 
operational.
    Secretary Chao. We need to have someone there and so I 
don't have a good answer for you.
    Senator Schatz. Okay. We'll look forward to the follow-up 
on my questions.
    Thank you, Secretary.
    Senator Collins. Senator Feinstein.
    Senator Feinstein. Thank you very much, Madam Chairman, and 
it's good to see you, Madam Secretary, and thank you for your 
help with the CalTrain Electrification. Everybody is very 
pleased with it, and I just wanted to directly say thank you 
very much.
    I wanted to talk to you for a minute on CAFE standards. 
When I came to the Senate in 1992, CAFE standards were frozen. 
You couldn't set Corporate Average Fuel Efficiency standards 
and Slade Gorton and Dick Bryan and I sat on the Floor of the 
Senate trying to do a resolution. We failed.
    I then teamed up with Olympia Snow and we produced a couple 
of bills which failed. Our third bill, however, was something 
called Ten-in-Ten Fuel Efficiency and that was from the year 
2010 to 2020. The law would provide that corporate average fuel 
efficiency would increase by 10 miles per gallon.
    We thought it was lost and Senators Stevens and Inouye, who 
were chair and Ranking of Commerce, put it in a bigger Commerce 
bill and, wala, it passed, and President Bush signed it and so 
the Ten-in-Ten Fuel Economy Bill is now the law of the land.
    What has happened is that from 2010 to 2020, the standards 
are 10 miles per gallon of fuel efficiency during that period 
of time. In 2016, an extensive 2,000-page technical assessment 
reported that the standards already proposed for model years 
2022 to 2025 are entirely feasible and that more technology is 
available than we originally expected.
    Here's the question. I understand you are looking for ways 
to make compliance with the standards more flexible, but will 
you commit to maintain at least the same overall level of fuel 
savings originally laid out for 2022 to 2025?
    Secretary Chao. I don't know where the interagency process 
is on that. The President in March 13, 2017, announced that we 
would have the midpoint review. That was a process point which 
was neglected by the previous Administration.
    So we are still in the process of evaluating all of that. 
We are actually in earnest, but difficult, discussions with 
California.
    Senator Feinstein. Yes, that was the next question.
    Secretary Chao. My staff has flown there several times in 
an effort to try to talk to them.
    So I think at this point, we are talking and I think 
everyone's operating in good faith, but there will be 
differences of opinion.
    Senator Feinstein. Yeah. Well, we believe that if it moves 
ahead as originally legislated, the Corporate Average Fuel 
Efficiency standards will be over 50 miles by 2025.
    Now the California question, as you mentioned, Madam 
Secretary, if I can be helpful with this, I'd like to, that 
when these fuel standards were first set in 2012, it was a 
result of an agreement between your department, the EPA, the 
automakers, and the California Air Resources Board.
    If you diverge--this is my understanding. If you diverge 
from the California standards, we would no longer have a single 
national program for fuel economy and this would put automakers 
in a very difficult position. One out of every eight cars in 
America is bought in California.
    So it's my understanding that there has not been much 
technical discussion between the Federal agencies and none 
involving the California Air Resources Board. It would be very 
helpful if you would consult with the California Air Resources 
Board to make sure that any standard that gets changed meets 
the general consensus of the law that is in place now and I 
think the Administration and this is what we worked on this for 
so long, signed in 2007. So a long time has gone by, but what I 
remember was the genesis of this is the standards had to be 
cost efficient, they had to be technically available, it had to 
be set by the technical people in your department, and we would 
then have a set of standards that would continue on.
    It's amazing to me that the automakers are objecting to 
this now because I'm told that the technology is there and I'm 
also told it's not that costly. So it seems to me.
    Secretary Chao. Well, we may have different cost estimates 
because this is an incredibly expensive regulation. It's 
something like $200 billion. I mean, it's huge. So I don't 
think it's going to be as expensive as we----
    Senator Feinstein. Well, this is true, but global warming 
is real and carbon infiltration into the atmosphere is a major 
cause and if we can reduce that, maybe we can save the planet. 
If we can't, I don't believe we will. I sincerely believe this, 
and as a matter of fact, well, I don't think we need to go into 
a debate on climate change.
    But my point is this is the law, that it was set and signed 
in 2007 by President Bush. It was a bipartisan bill, and all of 
a sudden it's going to be knocked out because part of it is 
discretionary by intent with the Administration.
    Secretary Chao. Well, again, we're in the process of having 
this, you know, midpoint review, and so the agencies are 
involved in looking at all of this. We've been talking to 
California. Let's see what happens.
    Senator Feinstein. Okay. Right. Well, I'd like to work with 
you. I'd like to see that we effect something that's 
reasonable. My worry is that it goes like this and California 
pulls out and then it's very difficult.
    Secretary Chao. No, it doesn't make sense at all to have, 
you know, two different standards.
    Senator Feinstein. Exactly.
    Secretary Chao. It makes it very difficult for everyone. So 
we're cognizant of that and concerned about that.
    Senator Feinstein. Thank you. Thank you, Madam Chairman.
    Senator Collins. Thank you.
    Senator Reed, I know you have a brief announcement you'd 
like to make before I call on Senator Boozman.
    Senator Reed. Madam Secretary, thank you for your testimony 
today, and I have a few other questions that I will send to you 
because I have to meet with the chief of staff of the Secretary 
of the Army, but thank you, Madam, and I'll leave you in the 
capable hands of the chairman.
    Thank you, Madam Chairman.
    Senator Collins. Thank you.
    Secretary Chao. Thank you.

                            IMPAIRED DRIVING

    Senator Collins. Senator Boozman.
    Senator Boozman. Thank you very much, and thank you, Madam 
Chair, Madam Secretary, for being with us today. We do 
appreciate your hard work.
    A lot of our states now are legalizing marijuana either for 
recreational use, or for medicinal purposes. I think we'll see 
a lot more of that come November, this next election year.
    As a result of that, we're seeing an uptick in drug-
impaired driving, and I want to thank you and really applaud 
your team that's doing a good job on working on that, in 
particular Deputy Administrator Heidi King, for making that a 
priority.
    Can you talk a little bit about in fiscal year 2019 some of 
the drug-driving initiatives that might be coming up or again 
your thoughts on additional research in that regard?
    Secretary Chao. Well, we're obviously very concerned about 
impaired driving and drug-induced influences. It's certainly 
not safe--not only for the driver but for surrounding drivers 
as well.
    So with the National Highway Traffic Safety Administration 
(NHTSA) 2019 request, it does include $1.5 million for drug-
impaired driving countermeasures and this funding will support 
training and education for law enforcement communities. The 
budget also--we do request also $1.2 million to support drug-
impaired driving research.
    NHTSA is working with law enforcement to provide training, 
as I mentioned, for recognizing drug impairment, and I say that 
again because apparently identifying drug use is a lot more 
difficult----
    Senator Boozman. Right.
    Secretary Chao [continuing]. Than identifying alcohol use. 
There's no breathalyzer that can be used.
    I think working with law enforcement, looking into the 
research will be very important, and we also have--NHTSA will 
also provide--has also provided a drug-impaired driving 
campaign, kind of a toolkit for states, so that state officials 
will have something that's handy and ready, a campaign that 
they can use right away instead of inventing 50 different 
campaigns.
    Senator Boozman. Very good.
    Secretary Chao. But your concern about this is noted and 
it's an increase. It is an increasing phenomena that we all 
need to be very careful--very cognizant of.
    Senator Boozman. No, and we appreciate that. As you say, 
it's just a different impairment and we've seen some of that in 
the past, but I think we're going to see a lot more of it with 
these laws, and we're going to have to come up with the 
equivalent of a breathalyzer, something that's easy, something 
that's reproducible that our law enforcement folks can lean on. 
So we do appreciate your hard work in that area.
    Secretary Chao. And also, as I mentioned, we need to alert 
motorists themselves----
    Senator Boozman. Yes, that's exactly right.
    Secretary Chao [continuing]. That they need to understand 
the danger of driving under the influence of drugs.
    Senator Boozman. Right. People that drink alcohol know that 
there's a certain amount that they can have, but what is the 
limit with some of these other things. So I think you make a 
great point.

                          PERMITTING PROCESSES

    The other thing I'd like for you to just talk about because 
it's music to my ears and you're doing a good job of it about, 
is that we talk about getting money in the form of grants and 
this and that and that's all great, but talk to me about being 
able to deliver infrastructure in a more timely way, cutting 
through some of the bureaucracy. That doesn't cost anything. In 
fact, that saves a tremendous amount of time and money.
    Tell us a little bit about some of the things that you're 
doing in that regard, and I know that this is something that 
you're working very, very hard on and is much appreciated.
    Secretary Chao. We've already talked about the tremendous 
need for infrastructure, repair, refurbishment, rebuilding in 
this country. We've already talked about how hard it is to get 
the full funding.
    I mean, there's not enough money for every single project 
in America and yet what adds to the cost of a project is the 
permitting process and if the permitting process is delayed 
that adds to the cost, the price of a particular project.
    So we've been, as instructed by the President, taking a 
look at why does the permitting take so long and we find that 
there are commonsensical ways to streamline the permitting 
process. It doesn't compromise any of the things that we care 
about. We are not following the law in any sense, but there are 
so many permitting processes that could be streamlined through 
elimination of duplicative processes, having permitting 
processes occur concurrently rather than sequentially.
    Senator Boozman. Right.
    Secretary Chao. Right now, you know, every single survey or 
every single permit process occurs one after the other. That 
adds years to a project. When different agencies are doing the 
same thing, can they not just do it concurrently?
    The third thing we found out is there's a lack of sharing 
of information and, in fact, a lot of information is prohibited 
from being shared by even sister agencies. So in the Department 
of Transportation, we will have different agencies conduct the 
same surveys.
    Not only is it irritating to the regulated community but 
it's counterproductive once again because it lengthens the 
timeframe for a particular project, increasing the cost of a 
project, and this money could be better used elsewhere.
    So we're looking at all of that and then, finally, 
yesterday, the President signed off on a Memorandum of 
Understanding between the 15-16 different Federal agencies to 
allow one agency to be the lead authority on a particular 
project and having one agency be in charge, one agency being 
responsible will hopefully help streamline the process and hold 
people's agencies' feet to the fire, as well. It's called One 
Federal Decision.
    Senator Boozman. Right, That's excellent, and like I say, 
we do appreciate your hard work and, you know, these are just 
common sense things. Those kind of things aren't glamorous, 
this and that, but they make such a big difference, and so we 
do appreciate your focusing your efforts there that ultimately 
is going to save a lot of time, a lot of delay, and lots of 
money.
    Thank you, Madam Chair.
    Secretary Chao. Thank you.

                          AIR TRAFFIC CONTROL

    Senator Collins. Madam Secretary, I mentioned in my opening 
statement that the Administration has given conflicting signals 
on the issue of the air traffic control privatization. It is in 
the budget request but the President, it is my understanding, 
has now backed away from that position.
    Could you clarify exactly where the Administration stands 
on this issue?
    Secretary Chao. The Administration made a full faith effort 
to try to improve the air traffic control system. All of us as 
passengers have experienced delays, hopefully not too long 
delays, but all of us have experienced delays.
    The current air traffic control system is still radar-based 
and while we have the safest system in the world, we can do 
better with a more GPS-based system and so that is why it was 
proposed that the air traffic control system be allowed to be 
liberated from the Federal Government in its own nonprofit co-
op governance structure and this was just going to be a change 
in the governance structure, that we take the FAA air traffic 
control out of FAA and allow the Aviation Trust Fund monies to 
be used 100 percent for air traffic control improvements rather 
than have half of the Aviation Trust Fund be used for deficit 
reduction.
    Unfortunately, this proposal was not met with enough votes 
and so, once again, you know, the Congress has not indicated 
its approval, support for this proposal. We hope that in the 
future, this proposal will be considered again because we 
believe that something needs to be done to improve the air 
traffic control system.
    I'm very grateful to the hard-working men and women air 
traffic controllers and people who work in the air traffic 
system on keeping our nation's air space safe but something 
needs to be done.
    I might add we just registered the one millionth drone on 
February 10th of this year.
    So the national air space will have to deal with 
integrating safely the phenomenon of drones and so there are 
lot of challenges facing our air traffic and national air space 
system and, again, letting the air traffic control system be 
liberated from the procurement rules and just the government 
restrictions and allowing it to be able to procure up-to-date 
equipment through its own separate, independent, nonprofit co-
op structure, we thought, would be the best solution, but, 
again, we were not successful in persuading the rest of 
Congress.
    Senator Collins. Well, I appreciate very much the 
recognition that this is not an idea that has widespread or 
even bipartisan support in the Congress and I would point out 
that we are making substantial investments in the NextGen 
System which should help address some of the issues that you've 
raised.
    I share your concern and, indeed, it was our bill that 
required the registration of drones and I've talked with 
pilots. We've had a hearing, an oversight hearing on how we can 
integrate drones into the air space of this country without 
endangering our commercial or private aircraft, and it is a 
challenge, as you've indicated, but I don't think 
privatization's the answer to that challenge.
    I want to bring up another issue that I hear about a lot in 
Maine and that is the shortage of truck drivers.
    Secretary Chao. Yeah.
    Senator Collins. The current shortage of truck drivers in 
our country is expected to grow from 48,000 to a 175,000 by the 
year 2024 and without a growing workforce, trucking companies 
will be unable to expand their fleets, which will lead to 
delays in moving freight and cargo and directly affect our 
economy.
    It's particularly challenging to recruit drivers older than 
21 who've already been out of high school for 3 years and may 
have already chosen a different career path. As a result, 
Congress authorized a pilot program as part of the FAST Act 
that allowed individuals between the ages of 18 and 21 to 
operate commercial motor vehicles if they'd received training 
during their military service.
    Could you give us an update on the status of that pilot 
program?
    Secretary Chao. We think that's a great idea. Certainly the 
shortage of truck drivers is a real concern. Trucks enable 
commerce to occur throughout our country.
    So we're taking a look at that. That came to us and we hope 
to be wrapping that up pretty shortly.

                       INFRASTRUCTURE INVESTMENT

    Senator Collins. Great. And, finally, I want to end with 
talking a little bit about the Administration's investment in 
infrastructure and yet it's cut in the Highway and Transit 
Formula Programs.
    As you know, the American Society of Civil Engineers each 
year puts out a report card and tallies up the backlog in 
repairs and refurbishment and deferred maintenance that is 
needed across our country.
    The group has given the country an overall grade of D+ for 
the condition of our infrastructure. In Maine, the Mainers are 
spending an extra $385 per year on average on vehicle 
maintenance because of the poor conditions of our State's 
roads.
    As you can imagine, in a northern state, you have a lot 
more repair and refurbishment that is necessary and, indeed, 
the Society of Civil Engineers rated 40 percent of my State's 
roads as being in fair or unacceptable conditions.
    So that is why I very much welcome the Administration's 
focus on infrastructure. I think that's a focus that has been 
long overdue in this country, but when I start adding up the 
money, I'm concerned that if there's $200 billion over 10 years 
for the Administration's Infrastructure Initiative, which 
appropriately includes not just roads and bridges but rural 
broadband and other investments that we need, and then I look 
at the Administration's budget reflecting a $122 billion 
reduction in the 10 years for critical Highway and Transit 
Formula Programs, I'm really wondering are we going to come out 
much ahead.
    Could you comment on that?
    Secretary Chao. The $122 billion cut is really not very 
accurate. We're basically talking about other parts of the 
Executive Branch. So it's not just Transportation, number 1. 
Number 2, I think we all agree that infrastructure is 
important. Certainly on the part of the Administration, this 
package has got to be finished on a bipartisan basis.
    I think the point of departure is how the private sector 
can help build or help to invest and build our infrastructure 
and there seems to be tremendous distrust of the private sector 
participating in the building or the rebuilding of our 
infrastructure and that's part of where our efforts need to be 
expended more because when we talk about a $1.5 trillion 
infrastructure project proposal package, of which $200 billion 
will be in direct Federal funding, through experience, we know 
that that can be leveraged to $1.5 trillion and yet there seems 
to be a lack of understanding and distrust that indeed the gap 
can be filled that way.
    We are regularly approached by and in discussion with many 
private sector entities, in large part private-sector pensions, 
who like to make relatively conservative long-term investments, 
and they can really help in the rebuilding of our country's 
infrastructure, but in many states, they are forbidden or 
disallowed from participating in financing of public 
infrastructure.
    So at the very minimum, we need to do away with those 
barriers and then also acknowledge that these private sector, 
you know, entities can help. So I think we probably need to do 
some more education because there seems to be, again this lack 
of understanding, and also trust that the private sector would, 
you know, not be rapacious when they participate in the 
financings of public infrastructure.
    Senator Collins. I think the concern that many of us have 
who represent lower-income large rural states is from our 
discussions with the private sector and we would love to have 
private sector investment in our infrastructure, but what we've 
found is they're not interested in projects that are under a 
$100 million, that that seems to be the threshold, and we don't 
have very many projects that are above a $100 million.
    There's talk of doing a new port in Maine that would be far 
in excess of a $100 million and we're hoping the private sector 
might be enticed to invest in that, but everything else is 
going to be under a $100 million.
    The second problem that a rural state has is generating the 
revenues to repay the investment by the private sector because 
often in a more urban area where there's heavy traffic on a 
road or bridge that the private sector has invested in, the 
method of repayment is a toll and in a rural State, you just 
don't have the volume to produce the tolls that are necessary 
to repay the loans from the private sector.
    So in my state at least, it's not a distrust of the private 
sector or not wanting them to come in. We would welcome that. 
We just can't figure out from the conversations that our 
Department of Transportation has had with investment banks and 
private equity firms and other potential investors how we would 
make it work because our projects just aren't that big.
    Secretary Chao. I actually agree with you. Rural America is 
different and perhaps we just need to say it again and again 
and repeat because this proposal does not say that public-
private partnerships would be the only model but that, indeed, 
for rural America, because of the lack of density of population 
centers, that it would be administered differently and 25 
percent of the proposal would be devoted to rural America on a 
formula basis.
    Senator Collins. And I am pleased to see that rural set-
aside, I think is absolutely critical.
    Madam Secretary, I'm sure there are going to be additional 
questions for the record, but you've spent a good amount of 
time with us this afternoon, which we appreciate.
    As you can see by the number of Senators who have stopped 
by to ask questions, there's great interest in your department 
and in the transportation needs of our country.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open until next Friday, 
April 20th, for the submission of additional questions which we 
will pass on to your staff and we know there were some 
questions that you're going to get back to us for the record 
on.
    I want to thank you for spending your time with us today. 
We will look forward to working very closely with you as we 
formulate the appropriations bill.
    I'm very proud of the fact that since I've been chairman at 
least and before that, that this subcommittee has always 
produced a bipartisan appropriations bill and it's often been a 
unanimous one, and I hope we can keep that up because 
infrastructure should not be a partisan issue.
    I want to thank the staff for their hard work, both my 
staff and Senator Reed's staff.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Question Submitted by Senator John Boozman
                         contract tower program
    Question.The contract tower program is one of FAA's most successful 
government/industry partnerships and, as you well know, has very strong 
bi-partisan, bi-cameral support in Congress. As validated numerous 
times by the DOT IG's office, the program continues to provide high 
quality, cost-effective, and critical air traffic control services to 
over 250 smaller airports throughout our nation's air transportation 
system including five in Arkansas.
    Given the critical importance of contract towers to rural America 
and smaller airports, what steps is the Department and FAA taking to 
work collaboratively with the industry to ensure its continued success?
    Answer. The FAA continues to support the FAA Contract Tower 
Program, a cost effective and efficient way to provide air traffic 
control services to smaller airports across the country. The FAA 
collaborates with both internal and external stakeholders on contract 
tower issues, such as Federal contract tower operating agreements, the 
minimum equipment list, and the New Start Order. This allows the FAA to 
pull together as much information as possible by allowing stakeholders 
to contribute their views and experiences in addressing issues that 
affect the Contract Tower Program.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                       culbertson, mt amtrak stop
    Question. Secretary Chao, it is good to see you again and I want to 
thank you for appearing before this subcommittee to testify on the 
presidents fiscal year 2019 budget request.
    I know that you have a busy schedule but I hope that you could soon 
commit to visiting Montana to see firsthand how important rural 
transportation infrastructure is to national connectivity.
    Amtrak's Empire Builder currently serves 12 communities along 
Montana's Hi-Line, which otherwise wouldn't have access to public 
transportation. Amtrak completed a study that shows adding a stop in 
Culbertson, MT would generate a net positive financial impact of more 
than $775,000 for Amtrak and would not add any additional time to the 
schedule. I have worked on this issue with the previous administration 
and my staff remains in constant contact with the local community to 
help make this stop a reality.
    What can you do to ensure that places like Culbertson, which would 
provide financial benefit and have the demand to sustain services, can 
grow their connectivity?
    Answer. The Administration has made investment in rural America a 
top priority. The fiscal year 18 Omnibus directs Amtrak to work with 
local officials and address the prospect of adding new stops, such as 
that in Culbertson, Montana, along the Empire Builder line. The 
Department, through the Federal Railroad Administration (FRA), will 
continue to oversee Amtrak's operations and the viability of adding 
stops along Amtrak's Empire Builder line.
    While Amtrak has decisionmaking responsibility on which markets to 
serve, interested stakeholders and project sponsors may submit 
applications to FRA's financial assistance programs, such as the 
Consolidated Rail Infrastructure and Safety Improvements (CRISI) 
Program and Restoration and Enhancement Grant Program.
                         contract tower program
    Question. My hometown airport in Bozeman, which is the busiest 
airport in the state, is part of the Federal Contract Tower Program. 
Their tower is not operational 24 hours a day and they handle more 
operations and more passengers than airports of similar size with 1/3 
of the employees. In some instances they have had to use their own 
funds to pay for additional staffing hours.
    What steps can you take to ensure that airports like Bozeman are 
able to maintain adequate staffing to meet the safety needs of 
passengers flying into and out of my state?
    Answer. The FAA monitors staffing at all 254 contract towers to 
ensure that adequate staffing levels are maintained. When a request for 
staffing adjustment is received, the FAA processes the request in 
accordance with applicable FAA directives. The Contract Tower Program 
operates under a reduced staffing concept, which has proven to be a 
safe, cost effective and efficient way to provide air traffic control 
service to smaller airports across the country.
    Question. I have heard from airports across my state, most notably 
Helena and Bozeman, about concerns that air traffic control towers are 
not staffed during all regularly scheduled flights. In Montana, where 
ground operations such as snow removal can take place while the towers 
are non-operational, this can present a safety hazard.
    What are you doing to ensure that the air traffic system is 
adequately serving the safe operations of aircraft movements each day, 
and are there processes in place to consider changes to hours of 
operations for air traffic control towers when needed?
    Answer. The FAA monitors staffing at all 254 contract towers to 
ensure that adequate staffing levels are maintained. The FAA will 
consider a request for increased staffing and longer hours of 
operations when the traffic at the airport during the time the facility 
is closed averages more than four operations an hour over a 
representative 90-day period or special operational or user 
requirements warrant increasing the operating hours.
    The Contract Tower Program operates under a reduced staffing 
concept, which has proven to be a safe, cost effective and efficient 
way to provide air traffic control service to smaller airports across 
the country.
                       electronic logging devices
    Question. In February, I visited 26 counties in Montana over a six-
day period and at nearly every stop I heard stories about how the 
Electronic Logging Device (ELD) rule, particularly for agriculture, is 
burdensome and unworkable in its present form. While I appreciate the 
extensions granted thus far by FMCSA, there are still many issues 
unique to agriculture that have not been resolved, such as clarifying 
points of origin regulations and trips with multiple pickups, among 
others. Given these uncertainties and concerns, the omnibus included a 
delay for the agricultural industry through September.
    Can you commit to continuing to work with me to find a workable 
solution to this issue that addresses the unique challenges faced by 
livestock haulers while maintaining safety on our roads?
    Answer. Yes. FMCSA published a guidance document specific to 
agricultural commodity haulers which clarified the Hours of Service 
exemption available under the 150 air-mile regulation. This included, 
points of origin, loaded and unloaded trips and other concerns.
    The relief granted under this new guidance provides increased 
relief to the industry in Hours of Service. Within the 150 air-mile 
exception there are no Hours of Service requirements. In addition, the 
FMCSA is conducting extensive outreach to the agricultural communities 
to ensure that they have the information they need. I look forward to 
working with you to continue our efforts to address the unique needs of 
the industry.
                   american transportation innovation
    Question. I recently returned from a codel in China where I was 
able to see firsthand the strides China is making in infrastructure 
investment and innovation. In the past you have noted that one of 
America's greatest competitive advantages is in innovation and 
technology.
    What steps are you taking to foster American innovation in regards 
to transportation and how can we, as a legislative body, help you make 
certain America remains the global leader in this arena?
    Answer. As part of the President's Plan, the Transformative 
Projects Program is a $20 billion competitive program that will provide 
Federal funding and technical assistance to private firms and nonprofit 
organizations that use transformative technologies and techniques to 
improve or reduce the costs of transportation services. This program 
will fill innovation gaps, and yield technologies that may solve our 
critical issues surrounding safety, congestion, and efficiency.
    The Department is also looking at barriers to innovation across 
every mode. Here are three major initiatives we have launched:

  --Autonomous Vehicles: On September 12, 2017, DOT published new 
        guidance for the safe testing and integration of autonomous 
        vehicles: AV 2.0: A Vision for Safety. It reflects input from 
        stakeholders. Technology is changing so fast that AV 3.0 is 
        already in the works. It will be released this summer.

  --UAS: On October 25, 2017, DOT announced a new Unmanned Aircraft 
        System (UAS) Pilot Program to allow interested communities to 
        safely test and deploy drones over people, beyond the line of 
        sight and in other circumstances currently prohibited by 
        regulation. On May 9, 2018, DOT announced that it had selected 
        10 State, local and Tribal governments as participants in the 
        new Unmanned Aircraft System (UAS) Pilot Program to allow 
        interested communities to safely test and deploy drones over 
        people, beyond the line of sight and in other circumstances 
        currently prohibited by regulation.

  --Request for Comment/Request for Information: The Department will be 
        seeking public input from stakeholders across the 
        transportation industry to identify how automation will disrupt 
        not only automobiles, but, railroads, transit, motor carriers, 
        and highways.

    We look forward to working with Congress and its perspective on 
innovation and new evolving technologies.
              rural transportation infrastructure funding
    Question. Transportation infrastructure is the backbone of our 
economy and I applaud the administration for recognizing the importance 
of modernizing our aging system. Real investment in established 
channels, such as the Highway Trust Fund, is needed because rural 
states like Montana simply do not have the capacity to rely on tolling 
or other revenue streams as a way of leveraging funding for its 
infrastructure needs.
    How are you working to ensure that states like Montana are 
prioritized and have the long-term certainty they need to plan, invest 
in, and complete projects?
    Answer. The Infrastructure Initiative includes a robust Federal 
funding program for infrastructure in both urban and rural areas. 
Additionally, it is the intent of the Infrastructure Incentives Program 
to attract rural focused investors by rewarding rural multi-State 
projects and unlock further financial support through Rural Performance 
Grants for States that demonstrate performance in multiple outcome 
areas, including leveraging formula distributions with Federal credit 
programs.
    The Administration's proposal specifically dedicates $50 billion 
(25 percent of overall amount) to enable rural America to address its 
many infrastructure challenges. Eighty percent of the funds will be 
provided to Governors via formula to fund their respective State's 
infrastructure priorities. The remaining 20 percent of the funds will 
be used for Performance Grants based on performance criteria. The 
program also will provide a needed boost to tribal and territorial 
infrastructure.
               Questions Submitted by Senator John Hoeven
                         transport of livestock
    Question. First, I want to talk to you about an issue that is of 
significant importance to my state, the safe and efficient transport of 
livestock.
    We have been working with the Federal Motor Carrier Safety 
Administration (FMCSA) to provide flexibility within the trucking Hours 
of Service regulations for truck drivers hauling livestock. Ranchers in 
my state, and throughout the country, have come to me with concerns 
that due to the unique nature of hauling livestock--which can include 
long hours during loading and unloading--potential animal safety 
concerns could arise should a driver not reach his destination within 
the 11 hours of driving, and 14-hour workday allowed under HOS 
requirements.
    I have worked with the Federal Motor Carrier Safety Administration 
to provide an exemption for truckers hauling livestock within a 150 air 
mile radius of the origination of their trip. When a driver goes beyond 
this radius, then the hours of service begin to apply and the driver 
can drive an additional 11 hours during his 14 hours duty time, 
providing a significant extension to the workday.
    I greatly appreciate your department's efforts thus far to provide 
flexibility for livestock haulers--including the recently announced 90-
day waiver from the electronic logging device (ELD) rule. As well, I 
understand that the industry has asked that you provide them a 
permanent waiver from the ELD rule. Can you provide me with an update 
on the status of this waiver request?
    Answer. The five-year ELD Exemption Request for livestock haulers 
is still under review. In the meantime, FMCSA continues to meet with 
the livestock industry and haulers to address their specific needs as 
well as conduct extensive outreach to the agricultural community.
    Question. Can you outline what the Department is doing to respond 
to the livestock industry's concerns with the Hours of Service 
regulations, while maintaining the safe and efficient transport of 
livestock?
    Answer. While the Department is still working with the livestock 
industry to address Hours of Service as a whole, FMCSA recently 
released an Agricultural Guidance Document. That document addressed the 
existing Hours of Service Exemption within the 150 air-mile radius for 
agricultural commodity haulers including, points of origin, loaded and 
unloaded trips, and other concerns. This will bring relief to industry. 
I look forward to working with you to continue our efforts to address 
the unique needs of the industry.
                         contract tower program
    Question. The contract tower program is one of FAA's most 
successful government/industry partnerships and, as you know, has very 
strong bi-partisan, bi-cameral support in Congress. As validated 
numerous times by the DOT Inspector General's office, the program 
continues to provide high quality, cost-effective and critical air 
traffic control services to over 250 smaller airports throughout our 
nation's air transportation system including in Minot, North Dakota.
    Given the critical importance of contract towers to rural America 
and smaller airports, what steps is the Department and FAA taking to 
work collaboratively with the industry to ensure its continued success?
    Answer. The FAA continues to support the FAA Contract Tower 
Program, a cost effective and efficient way to provide air traffic 
control services to smaller airports across the country. The FAA 
collaborates with both internal and external stakeholders on contract 
tower issues, such as Federal contract tower operating agreements, the 
minimum equipment list, and the New Start Order. This allows the FAA to 
pull together as much information as possible by allowing stakeholders 
to contribute their views and experiences in addressing issues that 
affect the Contract Tower Program.
                            move america act
    Question. We have spoken a number of times regarding the Move 
America Act, legislation that Senator Wyden and I have introduced that 
seeks to encourage private investment in infrastructure by expanding 
private activity bonds and creating a new infrastructure tax credit. As 
you know, Move America would expand each State's ability to issue tax-
exempt Private Activity Bonds to help drive private infrastructure 
investment for roads, bridges, ports, railways, airports, wastewater 
and sewage facilities, and broadband infrastructure, to name a few.
    Additionally, for those smaller states that are hesitant to issue 
more debt, or where revenue-generating projects--such as toll roads--
are not feasible, tax credits would provide another tool to attract 
equity investors for qualifying non-revenue generating projects. As 
well, because Move America builds off the tax-exempt bonding structure 
of state Private Activity Bonds, each state is allocated bonding and 
tax-credit authority based on population, with a baseline, meaning that 
the bill empowers states, not the Federal government, with the 
flexibility to choose how and where to invest their money. The Joint 
Committee on Taxation has estimated that Move America would finance 
$226 billion worth of infrastructure projects, $1.5 billion of which 
would be available for a small state like mine, North Dakota.
    What do you think is the most appropriate role for the private 
sector to play in addressing our nation's infrastructure needs?
    Answer. Facilitating private participation in transportation 
projects and encouraging innovative financing mechanisms that help 
accelerate project delivery are key objectives of the Department. For 
example, since the TIFIA program's inception, it has attracted private 
co-investment in the form of debt or equity financing for over 20 
large-scale infrastructure projects across the country.
    Toward that end, the President's plan includes $20 billion to be 
made available for the expansion of existing credit programs and 
private activity bonds to address a broader range of infrastructure 
needs, giving State and local governments increased opportunity to 
sponsor or directly finance large-scale infrastructure projects under 
terms that are more advantageous than in the financial market. This 
will also serve to increase private participation where it makes sense.
    Question. How do you see the private sector utilizing tools, such 
as Move America, to invest in our infrastructure?
    Answer. Current law includes a limited list of exempt facilities 
eligible to be financed with tax-exempt bonds. Amending the law (26 
U.S.C. 142) to allow broader categories of public-purpose 
infrastructure, including reconstruction projects, to take advantage of 
private activity bonds (PABs) would encourage more private investment 
in projects that benefit the public. Allowing privately financed 
infrastructure projects to benefit from similar tax-exempt financing as 
publicly financed infrastructure projects would increase infrastructure 
investment. The Administration proposes dedicating $20 billion to 
expand the capacity of existing Federal credit programs and broaden the 
use of PABs to create multipliers of the Federal investment. The 
President's plan will allocate $6 billion to broaden the use of private 
activity bonds which can generate $100 billion in transportation 
investment.
    Question. The risk of delay in permitting can make investors 
reluctant to commit resources to infrastructure projects. What can we 
do to accelerate the permitting process to alleviate this concern?
    Answer. There are numerous barriers to efficient project delivery. 
For example, the current environmental review and permitting process is 
complex and project sponsors can find it difficult to understand which 
requirements apply to their projects. A wide variety of agencies are 
responsible for environmental laws and regulations, meaning that 
project sponsors must potentially work with a number of Federal 
agencies to complete numerous environmental documents to advance a 
single project. How these environmental laws and regulations are 
applied can be inconsistent and unpredictable across agencies. In 
addition, projects are not always reviewed concurrently, but 
sequentially. This adds a tremendous amount of time in the review 
process that is frequently unnecessary.
    DOT is addressing the challenges within our own Department. The 
Infrastructure Permitting Improvement Center (IPIC) is the central 
resource for streamlining delivery of all DOT projects. IPIC advances 
methods that facilitate efficient environmental review and approval of 
projects, encouraging innovative solutions to complex projects.
    We coordinate with project delivery staff across all our modes, 
sharing best practices, and collaborate with the 16 Federal agencies 
that comprise the Federal Permitting Improvement Steering Council, 
established by FAST-41. We also manage and maintain the Federal 
Permitting Dashboard.
    However, these efforts are within the Department and recent reforms 
alone are not enough to achieve the two-year timeframe under the 
President's Executive Order and Infrastructure Initiative. That is why 
the Administration is proposing additional changes to the project 
delivery process.
    The President's plan proposes to reform the inefficient 
environmental review and permitting process, allowing critical projects 
to be delivered quicker and at lower cost while still ensuring 
environmental protection. These reforms will also offer greater 
predictability that will serve to incentivize further private 
investment in infrastructure projects.
    Question. In what ways could we further incentivize private sector 
investment in infrastructure? What other roadblocks exist that prevent 
investors from investing? States and localities may be hesitant to 
enter into public-private partnerships due to the complexity of the 
arrangements. What can we do to empower states and localities with 
analytical tools and technical support needed to effectively utilize 
private financing tools?
    Answer. As the recently formed Build America Bureau continues to 
mature, we will be expanding our technical assistance and direct 
support capacity to help develop more public-private partnerships 
(P3s), with an emphasis on broadening the portfolio of P3 projects to 
include more transit, station and port projects.
    P3s can also benefit from expanded financing mechanisms for 
projects via both the TIFIA and RRIF credit programs. Facilitating 
private participation in transportation projects and encouraging 
innovative financing mechanisms that help accelerate project delivery 
are key objectives of both programs. For example, since the TIFIA 
program's inception, it has attracted private co-investment in the form 
of debt or equity financing for over 20 large-scale infrastructure 
projects across the country.
    Toward that end, the President's plan includes $14 billion to be 
made available for the expansion of existing credit programs to address 
a broader range of infrastructure needs, giving State and local 
governments increased opportunity to sponsor or directly finance large-
scale infrastructure projects under terms that are more advantageous 
than in the financial market. This will also serve to increase private 
participation where it makes sense.
    This Administration firmly believes that infrastructure is a 
bipartisan issue and we look forward to working with Congress, not only 
on legislative text for the infrastructure bill, that addresses many 
forms of infrastructure beyond surface transportation, but also a long-
term reauthorization proposal for surface transportation specifically, 
as appropriate.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                      automation in transportation
    Question. Automation increasingly dominates the future of multiple 
modes of transportation. It is important that the Federal government 
understands the upheaval that could occur in the labor market as a 
result of mass automation of professions currently held by middle-class 
workers. The fiscal year 2018 Omnibus provides funding for you to 
conduct a study with the Department of Labor in order to better 
understand the consequences of automation for middle-class workers.
    Are you committed to undertaking that study immediately and 
contacting the Department of Labor to begin coordination on that 
effort?
    Answer. We will work with the Department of Labor to undertake the 
study.
    Question. You have the funding available for this study, and it is 
critical that these discussions occur across agencies so that we can 
best prepare as a nation to train our workers for the future of the 
American economy. I am also interested to know if the Department of 
Transportation has any ideas for any other specific initiatives that 
Congress should consider. Do you think that we should establish a 
taskforce on automation in the transportation industry and its impact 
on our workforce?
    Answer. Not at this time. The Department has initiated the process 
of identifying the gaps that need to be addressed through various AV 
focused Requests for Comments and Information (RFC/RFIs). The 
Department is seeking comments from our stakeholders and AV experts to 
understand the capabilities and limitations of AVs. This information 
will in turn inform the Department on setting priorities on how to 
address infrastructure needs to safely accommodate AVs in our Nation's 
infrastructure and potential impacts on our workforce.
                      consumer flight protections
    Question. When you appeared before this Subcommittee last year, we 
discussed your office's failure to implement regulations, which would 
require air carriers to refund baggage fees for baggage delayed over 12 
hours and to allow for adjoining seats for families traveling with 
children under the age of 13. Both of these regulatory mandates were 
included in the FAA Reauthorization Act of 2016 and were required to be 
finalized by July 2017. This Subcommittee was concerned with your lack 
of progress and directed you to take immediate action to implement 
these consumer protections. These mandates were broadly-supported, 
bipartisan directives, which would prevent airlines from taking 
advantage of the traveling public and ensure parents' ability to sit 
with and care for their children inflight. Why have you still not taken 
any action to implement these important consumer protections?
    Answer. In response to the 2016 FAA Authorization, DOT issued an 
Advance Notice of Proposed Rulemaking soliciting public comment and 
feedback on requiring airlines to refund fees for delayed bags on 
flights within, to and from the United States. We plan to issue the 
NPRM this year. Consumers may, of course, seek reimbursement for 
damages caused by delay in the delivery of their baggage by filing a 
claim with the airline. DOT already requires airlines to compensate 
passengers for reasonable expenses that result due to a delay in 
baggage delivery. In addition, the Department currently requires that 
airlines refund fees for lost bags.
    Question. We also discussed the airlines' misuse of overbooking and 
its negative impact on consumers, which resulted in several high 
profile incidents during last spring. You committed to evaluate this 
practice and to report back to this Subcommittee on whether additional 
limitations should be placed on overbooking by commercial airlines. 
What information have you found, and what actions do you feel are 
necessary to better protect consumers?
    Answer. We are sympathetic to the challenges families face when 
they are unable to sit together when flying. Airlines certainly should 
do everything they can to ensure the ability of a parent to sit with 
their children. The 2016 FAA Authorization required the Department to 
review U.S. airlines' family seating policies and decide whether it is 
appropriate to issue a policy.
    We have completed our review of U.S. airlines' family seating 
policies. To make sitting together easier when flying, the Department 
has now included on its website practical tips that families may use 
before, during, and after air travel. The Department website also 
includes links to the web addresses to the family seating information 
for the large U.S. airlines. I believe that providing consumers clear 
and accurate information enables them to make better informed decisions 
when choosing among air transportation options.
                             cafe standards
    Question. The Environmental Protection Agency has announced its 
intention to re-evaluate CAFE standards for cars and light-duty trucks 
in conjunction with National Highway Traffic Safety Administration 
(NHTSA). These industry standards were developed through rigorous 
research and analysis.
    What benefits does the Administration anticipate from rolling back 
CAFE standards? Do you dispute the underlying research that justified 
our current CAFE standards?
    Answer. Because NHTSA is statutorily-limited to setting standards 5 
years at a time, NHTSA has not yet either proposed or adopted CAFE 
standards for model years (MYs) 2022-2025. As discussed extensively in 
the 2012 final rule (in which NHTSA set standards for MYs 2017-2021) 
and in the 2016 Draft Technical Assessment Report (TAR), NHTSA was 
always obligated by law to conduct a de novo rulemaking to establish 
standards for MYs 2022-2025. Any new rulemaking would consider a range 
of alternatives and would be based on the best and most up-to-date 
information and analysis available.
    We are in the process of gathering that information and conducting 
that analysis now. We have welcomed the opportunity to work with EPA on 
crafting reasonable, appropriate, maximum feasible standards for future 
cars and trucks. Final decisions about the standards to be established 
for MYs 2022-2025 will be based on a transparent rulemaking process as 
contemplated in and required by the Administrative Procedures Act.
    Question. Why has NHTSA decided not to adjust civil penalties for 
noncompliance with CAFE standards for inflation?
    Answer. NHTSA is proposing to retain the civil penalty rate based 
on a determination that the Federal Civil Penalties Inflation 
Adjustment Act Improvements Act of 2015 does not apply to the CAFE 
penalty rate. NHTSA's analysis indicates that adjusting the rate would 
result in negative economic impact, and that the Energy Policy and 
Conservation Act of 1975 (EPCA) as amended by the Energy Independence 
and Security Act of 2007 (EISA) limits the agency's ability to increase 
the penalty rate. NHTSA will issue a final rule following its review of 
comments.
                           faa/dod ads-b moa
    Question. Since 2008, the Department of Defense (DoD) has expressed 
security and operational concerns to the Federal Aviation 
Administration (FAA) regarding the installation of ADS-B technology. 
For 7 years, the FAA has acknowledged that it would address DoD's 
concerns, and yet the fundamental Memorandum of Agreement (MOA) to 
implement these risk reduction solutions has been delayed from June 
2017 to February 2018 and still remains unresolved. What update can you 
provide on your efforts to address DoD's security concerns and move 
forward with the MOA?
    Answer. The Memorandum of Agreement between the FAA and the 
Department of Defense (DoD) has been under development for several 
years. The original purpose of the agreement was to document the 
following responsibilities between the FAA and DoD:

  --FAA would accommodate, to the greatest extent possible, DoD 
        aircraft that are not equipped with Automatic Dependent 
        Surveillance-Broadcast in addition to equipped aircraft that 
        are not transmitting signals continuously in order to maintain 
        operational security.

  --DoD would comply with the FAA's regulation that requires equipage 
        for Automatic Dependent Surveillance-Broadcast by January 1, 
        2020, to the greatest extent possible, both in equipage and 
        performance requirements.

    Initial coordination through the FAA and DoD service branches was 
completed in December 2017. In February 2018, the Office of the 
Secretary of Defense General Counsel inserted changes creating the 
following substantive issues:

  --Expanding scope to include cybersecurity threat mitigation efforts 
        underway in broader forums;

  --Documenting of DoD's intention that certain aircraft will never 
        equip due to perpetual risk to operations security; and

  --Asserting that DoD has approval authority on the FAA's proposed 
        plan for radar divestiture.

    Subsequent meetings in March and April 2018 resolved the inserted 
changes.
    The goal of accommodation for non-equipped DoD aircraft is to 
minimize or to eliminate operational impact to DoD's mission following 
January 1, 2020. Non-equipped DoD aircraft will be accommodated through 
continuity of surveillance service and associated updated procedures 
and training. DoD aircraft will have access to airspace that requires 
equipage for Automatic Dependent Surveillance-Broadcast as documented 
in national and local procedures that are consistent with ensuring safe 
operation of the national airspace. Modifications to air traffic 
control and aircrew procedures are in development to accommodate non-
equipped aircraft by ensuring that such surveillance service is 
maintained without any impact to safety, while minimizing or 
eliminating any operational impact to these non-equipped DoD aircraft.
    Additionally, there is rulemaking activity to remove the 
requirement that all equipped aircraft must transmit at all times. This 
rule provides an exception to these requirements, removing the 
transmission requirement for certain operations carried out in the 
interest of national security. The changes would provide relief to 
those government agencies that operate equipped aircraft but require 
the ability to terminate the transmission signal when conducting 
national security, sensitive, intelligence, and law enforcement 
missions that could be compromised by the requirement to transmit 
flight information over non-encrypted signals.
                         dot safety rulemakings
    Question. While I understand that new Administrations may conduct 
reviews of pending regulatory actions, safety must remain the top 
priority at the Department of Transportation (DOT), and failure to 
fulfill Congressional directives is simply unacceptable.
    In particular, this Subcommittee has directed DOT for successive 
years to issue a final rule requiring rail carriers to develop 
comprehensive oil spill response plans. This rule will ensure that 
emergency personnel are appropriately equipped and capable of 
responding to an energy product incident along rail routes in order to 
best protect life, property, and the surrounding environment. And yet 
no action has been taken to finalize this rule by DOT.
    When can we expect the comprehensive oil spill response plan rule 
to be finalized so that communities adjacent to rail lines are 
appropriately prepared and protected?
    Answer. The Department expects the final rule to be published by 
November 2018. PHMSA understands the importance of finalizing this 
rulemaking and has prioritized its completion.
    Question. There are also a number of other safety rules being 
delayed by this Administration, ranging from heavy truck speed limiters 
to sleep apnea screenings for train engineers and truck and bus 
drivers, which were also all mandated by Congress.
    For the record, can you please provide this Subcommittee with a 
detailed plan for implementation of each of these safety requirements?
    Answer. The Department's rulemaking efforts are driven by the 
belief that there should be no more regulations than necessary, and 
those regulations should be straightforward, clear, and designed to 
minimize burdens, consistent with safety.
    We note that neither of the two rules mentioned in this question, 
NHTSA and FMCSA's Joint Notice of Proposed Rulemaking on Heavy Vehicle 
Speed Limiters and FMSCA and FRA's Joint Advance Notice of Proposed 
Rulemaking on Sleep Apnea, are statutory mandates. NHTSA and FMCSA are 
still considering their next steps on speed limiters.
    With regard to sleep apnea, although FMCSA and FRA withdrew the 
ANPRM on Sleep Apnea on August 8, 2017, we are continuing to actively 
address this issue. In particular, FRA's Safety Advisory 2016-03 (81 FR 
87649, Dec. 5, 2016) continues to recommend steps that passenger and 
commuter railroads could take to appropriately address this issue. FRA 
is also drafting an NPRM that would require railroads to establish and 
implement a Fatigue Risk Management Program as part of their Risk 
Reduction Program, which is scheduled to be published in September 
2018.
    sexual assault and sexual harassment at merchant marine academy
    Question. As we discussed last year, the increasing rates of sexual 
assault and harassment across the service academies are a serious 
problem. I know that you are committed to improving conditions at the 
U.S. Merchant Marine Academy, but, yet again, the Maritime 
Administration is falling short of meeting the goals in its own 
corrective action plans. An IG review in 2016 found that 66 percent of 
previous action plans were achieved. And now, 2 years later, a 2018 IG 
review found that only 45 percent of the action plans' goals were 
achieved. I am concerned that this represents a reversal of progress, 
which will limit the effectiveness of sexual assault and sexual 
harassment prevention efforts on campus. What are you doing to ensure 
that these action plans are fully implemented?
    Answer. The Department is committed to eliminating sexual assault 
and sexual harassment at the United States Merchant Marine Academy and 
creating a safe living and learning environment for our students. As is 
described below, overlapping action plan requirements could have caused 
the number of requirements the Department has met to be underestimated, 
but the Department, MARAD and the Academy are focused on closing any 
gaps in response to issues OIG has identified.
    Over the course of 2016 and 2017, the Academy developed and 
implemented online interactive training modules on sexual assault and 
sexual harassment prevention, published a Sexual Assault Prevention and 
Response Framework, and established a culture change campaign. The 
Academy also expanded the Sexual Assault Prevention and Response Office 
from one person to a staff of four persons, and will shortly hire an 
attorney whose primary duty will be to serve as a special victim 
advisor. The Academy additionally trained four victim advocates from 
the faculty and staff. Finally, an independent consulting firm 
performed a culture audit in order to address the root causes of the 
inappropriate behaviors on campus and during Sea Year.
    The Academy also made a concerted effort to address the issues of 
sexual assault and harassment during Sea Year. Critically, the 
Department temporarily stood down Sea Year to fully assess the safety 
of our Midshipmen while at sea and subsequently restarted the program. 
During the pause, MARAD established a Shipboard Climate Compliance Team 
to develop and implement a company-by-company review process to 
determine if those companies had strong response and prevention 
policies in place prior to permitting them to carry Midshipmen aboard 
their vessels. The Ship Operations Cooperative Program (SOCP) published 
standardized computer-based training for all seafarers, which the 
Academy has incorporated into its Sea Year training, improving 
Midshipmen preparedness for sea. The SOCP also issued a best practices 
guide for ship masters.
    The Academy successfully tested communications devices which will 
be issued to all Midshipmen going to sea by the end of 2018 as required 
by the National Defense Authorization Act. Academy staff now conducts 
random ship visits to assess the climate and to ensure the well-being 
of the Midshipmen. In addition, the Academy delivers reintegration 
workshops for Midshipmen returning from sea as a forum for them to 
share their experiences and report and seek assistance related to any 
shipboard incidents as necessary.
    In 2017, in response to the climate survey, and after conferring 
with other Federal service academies, we began a deliberate effort to 
improve the Academy's culture. The Academy instituted new core values--
Honor, Respect and Service. We encouraged a Midshipman-led culture 
campaign called ``Be KP (Kings Point),'' with an emphasis on these core 
values. The ``Be KP'' campaign continues today.
    Finally, it is important to highlight that a comparison of progress 
results between the 2016 and 2018 OIG reports is misleading. The first 
OIG review in 2016 found that 66 percent of items on that year's Action 
Plan alone were completed. The OIG reached the finding that 45 percent 
of action items were completed in its most recent report by combining 
action items from: (1) The 2016-2017 Action Plan; (2) the climate 
survey; (3) the 2017 Culture Change Action Plan; (4) the 2016 and 2017 
Middle States Commission on Higher Education results; and, (5) the 2016 
and 2017 Advisory Board results. If only looking at the items completed 
in the Action Plans, the OIG estimates that the 2015-2016 Action Plan 
is 66 percent completed, and the Academy estimates that it has 
completed 80 percent of the 2016-2017 Action Plan items.
    In summary, the Academy has made important strides in establishing 
an effective program. The Academy received an increased number of 
official sexual assault reports in Academic Year 2017-2018 compared to 
previous years, demonstrating that students have increased trust in the 
system. The ``Be KP'' campaign shows that Midshipmen are owning the 
problem. In addition, we have seen student bystander actions, such as 
the removal of offensive material from class Facebook posts, which 
indicates that our Midshipmen are policing themselves.
    Question. Do I have your personal commitment to see that position 
is filled immediately?
    Answer. Yes. The Department strongly supports the hiring of an 
attorney to assist victims of sexual assault and sexual harassment. The 
recruitment announcement for this position closed on April 25, and we 
have a list of applicants whose qualifications we are currently 
reviewing. We will move forward with urgency through the selection 
process while ensuring that we choose the right candidate to fill this 
critical position.
                            highway signage
    Question. Senator Whitehouse and I recently exchanged letters with 
the Federal Highway Administration over the efforts of the Rhode Island 
Department of Transportation and the Rhode Island Department of Health 
to secure permission to post brief messages about opioid addiction 
assistance on changeable highway signs. Current policy strictly limits 
the use of highway signs to traffic-related information, AMBER alerts, 
and homeland security warnings.
    I understand FHWA's concern that broadening the kinds of 
information displayed on highway signs could create distractions that 
compromise safety. However, under current rules, many highway agencies 
are posting humorous messages that contain only passing references to 
traffic or safety-related information. With recent statistics showing 
that opioids cause more deaths than automobile accidents, it seems that 
providing a few lines of information about where to get help is an 
exception worth making.
    Will you review the policy and report back on changes that might be 
made to allow for the limited messages that Rhode Island would like to 
post?
    Answer. Combatting the opioid crisis is a top priority for this 
Administration. The President's initiative to address this crisis 
includes a nationwide evidence-based campaign to raise public awareness 
about the dangers of opioid abuse. The National Highway Traffic Safety 
Administration hosted a national summit in March to launch a new 
initiative to address the problem of drug-impaired driving, including 
best practices for educating the public. The initiative will include a 
series of regional summits, a new advertising campaign and focused 
efforts to improve drug-impaired driving data systems and criminal 
justice processes. Operating vehicles requires the complete attention 
of the operator, and limiting distractions--a growing cause of vehicle 
crashes and fatalities--is a primary focus for the Federal Highway 
Administration
    FHWA is aware that some highway agencies are posting messages with 
unconventional syntax and other inappropriate message formats and 
wording, unrelated to safety. Doing so violates the fundamental 
principles of a traffic control device message as stated in the Manual 
on Uniform Traffic Control Devices (MUTCD). The agency is in the 
process of addressing these inappropriate uses of traffic control 
devices.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                       capital investment grants
    Question. Secretary Chao, I'd like to go back to CIG and the 
specific projects in Washington state we discussed earlier. The past 
two spending bills--Fiscal Year 2017 and fiscal year 2018--provide 
initial funding for the Lynnwood Link extension, with the fiscal year 
2017 bill explicitly allocating $100 million to the project. I 
understand Sound Transit has submitted final materials to Federal 
Transit Administration (FTA) and that the final Full Funding Grant 
Agreement Readiness Review Report has been completed. FTA projects the 
Lynnwood Link extension project will meet all statutory requirements to 
receive a Full Funding Grant Agreement this summer.
    Will you commit to FTA signing the Full Funding Grant Agreement for 
the Lynnwood Link extension as soon as the project meets the statutory 
requirements?
    Answer. The project sponsor has remaining steps to complete before 
the Lynnwood Link project can be considered for a Full Funding Grant 
Agreement, including obtaining all funding commitments.
    Question. Similarly, I understand the Tacoma Link extension is 
under final review by FTA. Will you commit to FTA signing the Single 
Year Grant Agreement for the Tacoma Link extension as soon as the 
project meets the statutory requirements?
    Answer. As proposed projects become ready for a funding agreement 
commitment, FTA considers each project on its own merits and advances 
them through the process as appropriate. The Tacoma Link Extension was 
sent for Congressional review.
    Question. Earlier you said the Department would follow the law and 
adhere to the will of Congress and Congressional direction. Do you 
agree that the fiscal year 2018 spending bill clearly demonstrates the 
will of Congress with regard to the CIG program?
    Answer. The fiscal year 2018 Consolidated Appropriations Act 
provides a significant amount of additional funding for the CIG 
program, and includes a short deadline for the obligation of the 
majority of the funds. The Department is reviewing the projects in the 
program and their readiness for award of funds within the deadline 
established by Congress.
    Question. Further, do you agree that this direction is to continue 
the program and for FTA and the Department to move projects through the 
process and sign new grant agreements?
    Answer. The Department will continue to implement the Capital 
Investment Grants program in accordance with the law.
    Question. Please outline how you will carry out the will of 
Congress and move projects through the CIG process and execute Full 
Funding Grant Agreements and Single Year Grant Agreements.
    Answer. As proposed CIG projects become ready for a funding 
agreement commitment, FTA will consider each project on its own merits 
and will advance them through the process as appropriate.
    Question. Further, the Subcommittee is aware that several projects 
have completed the necessary steps and meet all statutory requirements 
but FTA has not signed grant agreements. Are there any issues or 
problems we are not aware of that is preventing FTA and the Department 
from moving forward with grant agreements?
    Answer. The Department is implementing the Capital Investment 
Grants program in accordance with the law. As proposed projects become 
ready for a funding agreement commitment, FTA considers each project on 
its own merits and advances them through the process as appropriate. 
FTA has signed six CIG construction grant awards since October 2017 as 
shown below:

  --FL Fort Lauderdale, FL WAVE Streetcar
  --MI Grand Rapids Laker Line Bus Rapid Transit
  --FL Jacksonville East Corridor Bus Rapid Transit
  --MO Kansas City Prospect Max Bus Rapid Transit
  --WA Everett Swift II Bus Rapid Transit
  --CA San Raphael SMART Commuter Rail
                                 tiger
    Question. I also want to go back to TIGER. On TIGER, you said you 
would follow Congressional direction for the $1.5 billion Congress 
provided the Department in the fiscal year 2018 spending bill for 
TIGER. Several of us on this Subcommittee asked you these same 
questions last year regarding the $500 million Congress provided in the 
fiscal year 2017 spending bill for TIGER. And after reviewing the 41 
projects the Department selected for TIGER awards in March 2018, it is 
clear that you are not following Congressional intent.
    Congress provides direction on TIGER, key among them is to ``invest 
in a variety of transportation modes.'' Despite a diverse set of 
eligible uses for TIGER, a disproportional number of the 2017 awards 
were highway or road projects--accounting for 24 out of 41 total 
awards. Only two public transit projects were awarded, representing a 
mere 3.62 percent of the total funding available. Not only does this 
not meet Congressional intent, the imbalance in transportation modes 
becomes more shocking when looking back on the past eight rounds of 
TIGER in which transit projects consistently received an average of 25 
percent of funding.
    Secretary Chao, Congress again provided you clear direction to 
``invest in a variety of transportation modes.'' Will you commit to 
awarded fiscal year 2018 TIGER grants in a more balanced fashion across 
all eligible transportation modes and better reflect the diverse needs 
of communities?
    Answer. The Department submits each of the discretionary grant 
applications to a comprehensive and thorough evaluation according to 
the criteria set out by Congress and in DOT's Notice of Funding 
Opportunity. DOT wants to make sure that the projects which best 
address the criteria are prioritized for funding.
                         faa/aviation programs
    Question. The Contract Tower Program is one of the Federal Aviation 
Administration's (FAA) most successful programs rooted in strong and 
effective partnerships between the Federal government and industry. The 
Department's Office of Inspector General has confirmed several times 
that the program provides high quality, cost-effective, and critical 
air traffic control services to over 250 airports throughout the 
nation, including seven in my home state of Washington. These airports 
provide critical safety and economic benefits to local communities.
    What steps is the Department and FAA taking to work collaboratively 
with industry to ensure the continued success of the Contract Tower 
Program?
    Answer. The FAA continues to support the FAA Contract Tower 
Program, a cost effective and efficient way to provide air traffic 
control services to smaller airports across the country. The FAA 
collaborates with both internal and external stakeholders on contract 
tower issues such as Federal contract tower operating agreements, the 
minimum equipment list, and the New Start Order. This allows the FAA to 
pull together as much information as possible by allowing stakeholders 
to contribute their views and experiences in addressing issues that 
affect the Contract Tower Program.
    Question. Secretary Chao, I was surprised and disappointed to see 
the President's budget request includes deep cuts to the FAA's 
Environmental Sustainability programs. This funding supports the FAA's 
Continuous Lower Energy, Emissions, and Noise (CLEEN) Program and the 
FAA Center of Excellence for Alternative Jet Fuels and Environment, 
which have received strong bipartisan support over the years and 
represent public-private partnerships with industry, universities, 
community, and non-profit organizations. In fact, industry is a cost-
share partner with the FAA on CLEEN through at least a 1-to-1 match.
    While the Administration may see this as an ``environmental'' 
program, the real issue is our global competitiveness, supporting 
innovative technologies, and ensuring the next generation of aircraft 
meet standards on noise and energy issues. Investments in these 
programs have resulted in the United States maintaining our 
international competitiveness in the aerospace industry.
    Without the support of the FAA through these environmental 
sustainability programs, how does the Department propose to maintain 
American competitiveness as international regulations continue to 
impact and drive aviation industry demands?
    Answer. We recognize that international regulations continue to 
impact and drive aviation industry demands on several fronts, including 
environmental sustainability, and that U.S. leadership is essential if 
we are to maintain American competitiveness. The FAA has multiple 
avenues and programs aimed at addressing those demands. Our budget 
request for fiscal year 2019 reflects an interest in modernizing the 
FAA's research programs, while still providing support for the 
Continuous Lower Energy, Emissions and Noise Program and the Center of 
Excellence for Alternative Jet Fuels and Environment, among several 
research priorities.
    Question. Seattle-Tacoma International Airport (Sea-Tac) in 
Washington state continues to be one of the fastest growing airports in 
the country. Last year, Sea-Tac served 47 million passengers which is 
up from just over 30 million passengers in 2010. While this growth 
provides significant benefits to the Puget Sound region and Washington 
state as a whole, it does not come without challenges. The airport, 
cities, and I have heard an increase in concerns from local residents 
about airplane noise. While Sea-Tac has an important role to play in 
engaging with the local communities on these concerns and others, the 
FAA sets flight paths into and out of airports and I believe the FAA 
needs do more to respond to communities and residents that raise 
aviation noise concerns.
    Secretary Chao, the recently enacted spending bill provides $2 
million to the FAA to dedicate full-time staff to community engagement 
and other activities to address aviation noise concerns. I understand 
the funding provided is intended to ensure one full-time staff position 
is dedicated to each FAA region in the Continental United States. Will 
you commit to ensuring each FAA region benefits from these additional 
resources, including the Northwest Mountain Region?
    Answer. The FAA is developing a plan to best utilize the community 
engagement resources provided by the Committee so that the FAA can 
maximize our outreach to communities experiencing aircraft noise. The 
FAA will seek to provide the greatest impact while preserving the 
flexibility to adapt to evolving outreach needs. The FAA expects to 
take a coordinated approach to the additional personnel, leveraging 
resources within and across regions, including the Northwest Mountain 
Region, to engage with communities and implement the direction provided 
by the Committee.
    Question. Can you provide a timeline for FAA fulfilling this 
requirement and providing this important resource to communities 
throughout the nation?
    Answer. The FAA is committed to bringing all the staff positions on 
board by the end of the calendar year.
    Question. Similarly, the recently enacted spending bill provides $5 
million to the FAA to expand the remote tower pilot initiative with at 
least two additional airports. I have heard from several airports in 
Washington state who are interested in participating in this pilot 
program. Can you outline the FAA's plan for fulfilling this 
requirement?
    Answer. The FAA has already initiated a plan for fulfilling this 
requirement. A portion of the funding provided in the spending bill 
will be allocated to continuing the ongoing Remote Tower Project at 
Leesburg Executive Airport (JYO). Funding will be used to complete the 
system approval process at that site, including all remaining 
evaluation activities. The remaining funds will be allocated to 
beginning evaluation activities of Remote Tower systems at two new 
sites. Additional funding will be required in fiscal year 2019 to 
complete the intent of the fiscal year 2018 appropriation at these two 
new sites.
    Question. Does the FAA intend to issue a Notice of Funding 
Opportunity for interested airports?
    Answer. The FAA does not intend to use a Notice of Funding 
Opportunity for airports interested in remote towers. Instead, in 
summer 2018, the FAA will release a Request for Information from 
airport/vendor pairs to establish public/private partnerships for 
consideration for the two new remote tower sites. The FAA has 
successfully used public/private partnerships in the past, and will use 
that model here. Using criteria established in the Request for 
Information, the FAA will select the top two airport/vendor pairs to 
enter into an agreement for work to be performed at each of the two 
additional sites.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                              infra grants
    Question. Secretary Chao, DOT is currently reviewing applications 
for the Infrastructure to Rebuild America or ``INFRA'' grant program. 
The program, which was originally authorized by Congress as the 
``FASTLANE'' grant program in the 2015 FAST Act, was rebranded by the 
Trump Administration with a larger emphasis on leveraging Federal funds 
with non-Federal funding. Is that fair way to characterize the change 
in INFRA grant criteria?
    Answer. The Department changed the INFRA criteria in several ways 
to include the following aspects: greater leverage of Federal funds, 
streamlining the permitting process, enhancing performance and 
accountability, and placing a greater emphasis on achieving rural 
transportation outcomes.
    Question. I mention DOT's new criteria for INFRA grants because 
there is likely no other project in the country that brings as much 
non-Federal funding to the table than the 75th Street Corridor 
Improvement Project in Chicago, which is part of the CREATE Program. 
Over 60 percent of the project will be paid for with non-Federal funds 
provided by the state of Illinois, local communities, and the freight 
railroads. In addition, a study by the University Illinois highlights 
that three-quarters of the CREATE Program's impacts on rail congestion 
would actually occur outside of the Midwest. Yes, this project would 
significantly reduce rail congestion in and around Chicago, but its 
benefits will also be felt around the country.
    Can you clarify if a project's (1) amount of non-Federal funding 
and (2) regional and national significance are the most important 
factors DOT considers when choosing projects for INFRA grant awards?
    Answer. The Department must satisfy all Congressional requirements 
and base awards on how well applicants address the primary and 
secondary selection criteria in the Notice of Funding Opportunity. 
Therefore, no one single criteria is more important than the others. 
The Department must satisfy numerous requirements when making awards.
    Question. Given that the 75th Street project meets all of the INFRA 
program's goals, I urge you to give this critical project your full 
consideration as you finalize INFRA grant awards. When do you expect 
DOT to announce INFRA grant awards?
    Answer. The Department announced 26 proposed INFRA awards on June 
8, 2018. The Department will begin awarding these projects following 
the completion of the 60-day Congressional review period in early 
August. All applicants have been notified of the completion of the 
competition.
                                 amtrak
    Question. Secretary Chao, Amtrak's Chicago-Carbondale route 
continues to be one of the worst performing routes in the country due 
to freight interference. Last year, the route was only on time 32 
percent of the time because Canadian National Railway continues to give 
preference to its freight trains over Amtrak trains despite the 
decades-old statutory requirement to prioritize passenger trains. 
Nationally, Amtrak's long distance trains were on time at stations only 
45 percent of the time in 2017, a decline of 8 percent compared to 
2016. Eight of Amtrak's 15 long distance trains run through Illinois.
    What is the Trump Administration doing to improve Amtrak's on-time 
performance in Illinois and around the country?
    Answer. Outside the Northeast Corridor, Amtrak trains largely 
operate on tracks owned and dispatched by freight railroads. According 
to AAR, US freight railroads saw a 3.4 percent increase in total 
traffic in 2017, increasing freight train interference--the most common 
source of delays for Amtrak trains--on many Amtrak corridors. Amtrak 
submits monthly reports on delays and on-time performance to FRA. Staff 
meet monthly with Amtrak and each host railroad to discuss the previous 
month's performance.
    Regarding the Chicago-Carbondale, IL, route, Canadian National 
Railway (CN) has placed speed restrictions, minimum axle requirements 
and mandatory braking requirements on Amtrak's Illini/Saluki trains 
along this corridor as CN and Amtrak have identified some grade 
crossing activation issues. These requirements have increased the 
overall trip time, causing Amtrak trains to miss their schedule. CN and 
Amtrak are working together to identify an explanation for these 
activation issues, and FRA's Office of Safety has encouraged the 
parties to work aggressively toward determining the cause and ensuring 
a safe railroad.
    This year, the Trump Administration nominated a new board 
chairwoman and two new board members to the Surface Transportation 
Board, the agency with jurisdiction to enforce Amtrak's preference.
    Question. Why does the Trump Administration believe that cutting 
Amtrak funding will help improve service for the 31 million passengers 
that use Amtrak annually including thousands of Illinois students, 
seniors, and rural riders, who depend on this service the most?
    Answer. The President's Budget proposes a significant restructuring 
to the Amtrak network. In fiscal year 2017, long-distance routes 
accounted for approximately $500 million in operating losses for 
Amtrak. This is because ridership is lower and costs higher than on 
urban routes--making the per-passenger costs much higher. To address 
these losses, the fiscal year 2019 President's Budget proposes a number 
of options, including calling for States to assume responsibility for 
half of the operating costs of Amtrak long distance trains through 
their jurisdictions.
    This cost-sharing proposal would reduce the Federal subsidy that 
supports these routes and enable States to play a larger role in 
shaping the delivery of long distance train service. This proposal is 
one of several ideas in the President's Budget to rationalize the 
Amtrak system, improve efficiency, and reduce costs.
                              rescissions
    Question. Secretary Chao, there are reports that the Trump 
Administration is preparing a ``rescissions package'' to send to 
Congress, which would ask Congress to rescind much of the non-defense 
funding that was included in the recently passed fiscal year 2018 
omnibus appropriations bill. The funding levels in that bill were 
carefully negotiated on a bipartisan basis for months before they were 
passed by this Republican-controlled Congress and then signed by 
President Trump. It took Congress nearly 6 months into the fiscal year 
to finally get its act together and appropriate funding for the rest of 
fiscal year 2018. And now you are here today to discuss fiscal year 
2019 funding. Secretary Chao, you know better than most about how 
difficult it is to pass anything in this Congress with the overwhelming 
bipartisan support that the fiscal year 2018 omnibus received.
    Do you think it's a good idea to pursue a rescissions package that 
would cast aside months of bipartisan negotiations and reopen the 
fiscal year 2018 appropriations process?
    Answer. The Administration has exercised its rescission authority 
under the Impoundment Control Act to see what can be done to control 
spending that may be unnecessary and wasteful. Rescission authority has 
been used many times by presidents of both parties.
    Question. Will the rescissions package include specific cuts to 
DOT, and if so, what DOT programs can we expect to be included?
    Answer. The rescission package proposed rescissions to certain 
surface transportation accounts. Details may be found at the following 
link:

  --https://www.whitehouse.gov/wp-content/uploads/2018/05/POTUS-
        Rescission-Transmittal-Package-5.8.2018.pdf
                                 tiger
    Question. The TIGER program has been a great success in Illinois 
and across the country. Despite the calls from the Trump Administration 
to eliminate the TIGER program, last month the Republican controlled 
Congress ignored the Administration's request for the second year in a 
row and instead increased funding for the TIGER program to $1.5B. 
That's the largest funding level that Congress has provided for TIGER 
since its inception. Let me repeat that. TIGER's largest funding level 
EVER was passed by a Republican controlled Congress and signed by a 
Republican president.
    Given the obvious support of the Republican majority for what is an 
enormously popular program, why does this Administration continue to 
call for the elimination of the TIGER grant program?
    Answer. We know how popular TIGER grants are with members of 
Congress; however, TIGER was neither authorized, designed, nor was 
historically large enough, to address the Nation's comprehensive 
infrastructure needs. For example, TIGER has not been used to spur 
additional State, local and private sector investment, address 
comprehensive program of projects, nor was it sufficiently focused on 
rural needs.
    Through recent changes made by Congress to increase the required 
set aside for rural projects, increase the available funding for 
projects, combined with the Administrative changes to the merit 
selection criteria to address new forms of revenue, rural outcomes, and 
the submission of program of projects, the new program, Better 
Utilizing Investments to Leverage Development (BUILD), now more closely 
reflects bipartisan national infrastructure goals. Projects originally 
eligible for TIGER grants will have the opportunity to apply and 
compete for $1.5 billion of funding included in the current BUILD 
solicitation. Based on the Congressional and Administration's changes 
to the program, the justification for including funding for the BUILD 
program in the fiscal year 2020 President's Budget is greatly 
strengthened. Therefore, I can assure you that the Administration will 
give full and careful consideration on whether to include funding for 
the BUILD program in the upcoming fiscal year 2020 budget request.
    Question. DOT recently announced half a billion dollars in TIGER 
awards to 41 projects in 43 states. If the TIGER program was eliminated 
as you have proposed, how would these important projects have been 
funded by this Administration?
    Answer. Under the President's plan, projects originally eligible 
for TIGER grants will have the opportunity to apply and compete for 
funding included in the Administration's Infrastructure Initiative. The 
proposal provides an additional $200 billion over the next 10 years for 
increased Federal spending, including funding for merit-based 
transportation infrastructure projects, and will provide an important 
capability for the Department to address our Nation's urgent 
transportation infrastructure needs at the State and local level.
    Question. How does eliminating this program make it easier for 
state and local governments to carry out these projects and create 
jobs?
    Answer. Under the President's plan Projects originally eligible for 
TIGER grants will have the opportunity to apply and compete for funding 
included in the Administration's Infrastructure Initiative.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       capital investment grants
    Question. On a bipartisan basis, Congress has now twice rejected 
the Administration's attempt to terminate the Federal Transit 
Administration's capital investment grant program. For fiscal year 
2018, we provided $2.645 billion, a 10 percent increase over the 2017 
level, and a 22 percent increase over the 2016 level. We also wrote new 
time limits into the law, and specifically directed you to move 
projects through the program from initial application to construction.
    Now that Congress has spoken, will you commit to faithfully 
implement the program, accept new projects, and move existing projects 
through the pipeline?
    Answer. The Department will continue to implement the Capital 
Investment Grants program in accordance with the law. As proposed 
projects become ready for a funding agreement commitment, FTA will 
consider each project on its own merits and will advance them through 
the process as appropriate.
    Question. In February, your Department unexpectedly delayed the 
advancement of two projects into engineering: the BART Core Capacity 
project and Phase 3 of Los Angeles' Westside Subway Purple Line 
Extension. What steps are you taking to move both of these projects 
along so that their construction will not be delayed?
    Answer. The project sponsors' requests to enter the engineering 
phase are under review. The Department is conducting risk assessments 
of the capital cost estimates and schedules for both projects, which 
should be completed in the near future. We believe such reviews are 
prudent given the size and scope of both projects and the trend of 
significant capital cost increases on several other California Capital 
Investment Grant projects.
    Question. Last year, Congress appropriated the first half of 
funding for two projects: the Orange County Streetcar and the 
Sacramento Streetcar. The omnibus this year provided the second year of 
funding for both.
    When can we expect you to release the grant agreements for Orange 
County and Sacramento, now that they are both fully funded?
    Answer. FTA considers each project in the CIG program on its own 
merits, including both the Santa Ana Streetcar in Orange County and the 
Sacramento Streetcar. FTA will advance the projects through the process 
as appropriate.
                              tiger grants
    Question. For the first time this year, the Department instituted a 
policy limiting states to a single TIGER award.
    California is home to 12 percent of the nation's population, hosts 
14 percent of the nation's economy, and has historically won about 8 
percent of TIGER funding. However, California was awarded less than 2 
percent of the available funding this year under the Department's new 
policy.
    I do not believe this was a reasonable interpretation of the 
program's legal requirement to ``ensure an equitable geographic 
distribution of funds.''
    As you administer this year's TIGER program, which the recent 
Omnibus tripled in size, will you reconsider the one-grant-per-state 
policy?
    Answer. The Department always strives to provide an equitable 
distribution of funds where possible. This determination will be based 
upon the number of applications received by each state, the technical 
ratings of the applications, and other competing statutory 
requirements.
    Given Congress' fiscal year 18 appropriation of $1.5 billion in 
available grant funding, coupled with a statutory maximum of $25 
million award per grant, the Department will provide multiple awards to 
some states.
    Question. Prior to making TIGER grant awards, the Department's 
economists and subject matter experts reviewed each of more than 450 
applications in order to make recommendations to the Secretary. These 
technical ratings are the way that projects receive a merit-based 
review.
    It is my understanding that just over 100 applications were 
``highly recommended'' as a result of this review, for a total of $1.5 
billion in requested funding. Ultimately, you only had $500 million in 
funding to award.
    How many awards did you make to projects that were less than 
``highly recommended''?
    Answer. Of the 41 TIGER awards made during the last round of 
competition, 28 received a technical evaluation rating of Highly 
Recommended and 13 received a rating of Recommended. That rating 
reflects the application's alignment with the primary and secondary 
selection criteria identified in the Notice of Funding Opportunity; it 
does not reflect the Department's separate economic or readiness 
analyses.
    Question. Would you be willing to release the technical ratings for 
each of the project applications and final awards so that Congress can 
ensure that taxpayer funding is going to good projects?
    Answer. The Department, as a general practice, offers technical 
debriefs to all applicants that request a debrief where we provide the 
full details of all technical ratings to applicants. As part of the 
award process, the Department provides Congress with the justification 
and rationale for all awards three days in advance of announcement to 
ensure Congress is fully aware of the Department's award decisions.
                     nhtsa mission and rulemakings
    Question. The Administration's budget request for the Department of 
Transportation includes a $26 million reduction in funding for NHTSA's 
vehicle safety program. Included in this cut is a more than 50 percent 
reduction in funding for the agency's enforcement budget which supports 
NHTSA's efforts to identify safety recalls and ensure new vehicles, 
such as driverless cars, meet Federal safety standards. In addition, 
the agency's rulemaking budget will be cut by nearly $2 million.
    NHTSA has a backlog of several mandated deadlines set by Congress 
in the 2012 Moving Ahead for Progress in the 21st Century (MAP-21) Act 
(Public Law 112-141) to issue regulations requiring rear seatbelt 
reminders, updating lower anchorages and tethers for children (LATCH) 
systems for child occupants and to improve occupant protection in 
motorcoaches. In addition, if autonomous vehicles are to be deployed at 
greater numbers, NHTSA will have a responsibility to establish safety 
standards for the new sensors and automated driving technologies.
    At the same time, there were a record 927 safety recalls in 2016 
affecting over 53 million vehicles. This eclipses the previous record 
set in 2015 when 869 recalls were issued for 51 million vehicles.
    Given the increasing number of traffic-related deaths and injuries, 
record numbers of safety recalls, and a significant increase in 
responsibilities and oversight requirements as autonomous vehicles are 
deployed, please provide a detailed explanation regarding NHTSA's 
capacity to meet its mission and ensure public safety given the drastic 
cuts the Administration is proposing to NHTSA's budget. Additionally, 
what is the justification for cutting NHTSA's rulemaking budget by 
nearly $2 million at a time when the agency is woefully behind in 
issuing safety rulemakings that were directed by Congress in 2012 to 
enhance safety?
    Answer. The National Highway Traffic Safety Administration's 
(NHTSA) mission is to save lives, prevent injuries, and reduce economic 
costs due to road traffic crashes, through education, research, safety 
standards, and enforcement activity. The fiscal year (FY) 2019 
President's Budget requests $915 million to support NHTSA's full 
spectrum of vehicle and behavioral safety activities, including $152.43 
million for Vehicle Safety, $152.10 million for Highway Safety Research 
and Development, and $610.21 million for Highway Traffic Safety Grants.
    To address the role of human choices and errors in auto crashes, 
the fiscal year 2019 budget request will allow NHTSA to further 
influence driver behaviors to reduce injuries and fatalities on our 
roadways; continue its efforts in rulemaking, enforcement, and vehicle 
research; and develop and implement data-driven, workable, and self-
sustaining highway safety programs. NHTSA's fiscal year 2019 budget 
request will continue to support the agency's safety programs and 
activities, while ensuring that the agency keeps pace with industry 
innovation in driver distraction, vehicle electronics, and highly 
Automated Driving Systems.
    The fiscal year 2019 budget shows a reduction of about $1.7 million 
total for NHTSA's Office of Rulemaking. However, nearly all of the 
reduction is attributed to its New Car Assessment Program (NCAP). The 
key performance indicator for NCAP is the percentage of new vehicles 
rated by NCAP for a given model year vehicle fleet. Because of 
variations in the new vehicle fleet, funding levels can vary from year 
to year. The agency believes the requested funding levels would provide 
the appropriate funding to fulfill program deliverables for fiscal year 
2019.
                                 drones
    Question. As ever increasing numbers of unmanned aircraft systems 
(drones) enter the airspace, our communities expect to maintain safety, 
privacy, and property rights. The Federal Aviation Administration is 
responsible for ensuring the safety of the airspace, but they share 
responsibility for safeguarding the people on the ground with state and 
local governments.
    How does the Department plan to use the Drone Integration Pilot 
Program to work with state and local governments to maintain the safe 
operation of drones at low altitudes?
    Answer. The objectives of this program are:

  --To test and evaluate various models of State, local, and Tribal 
        government involvement in the development and enforcement of 
        Federal regulations for unmanned aircraft system operations;

  --To encourage unmanned aircraft system owners and operators to 
        develop and safely test new and innovative unmanned aircraft 
        system concepts of operations; and

  --To inform the development of future Federal guidelines and 
        regulatory decisions on UAS operations nationwide.

    This program also takes the collaboration occurring today to a new 
level by enabling local, State, or Tribal governments to determine what 
kind of activities will occur in their jurisdictions during the period 
of the pilot program, subject to FAA safety oversight.
    The program incorporates community participation to provoke 
meaningful dialogue relative to drone operations. Partnerships can give 
local participants and Federal officials opportunities to strike the 
right balance between which integration issues should be handled at the 
national level and which issues could potentially fall to other 
jurisdictions. The FAA required community engagement as an element of 
the Integration Pilot Program proposals because it is critical to 
meaningful discussions about balancing local and national interests 
related to integrating unmanned aircraft.
    Under the FAA agreements with State, local and Tribal governments, 
the program will also give a wider range of private operators and 
localities the chance to propose solutions to the most difficult 
integration challenges. We expect this program to provide valuable data 
and acquire knowledge to accelerate our efforts to enable the unmanned 
aircraft system industry, standardize low-altitude operations, and 
improve safety through broadly applicable procedures and rulemaking 
efforts.
    Question. One of the most sensitive areas for the integration of 
drones is around airports. I was pleased to see the Federal Aviation 
Administration establish the Low Altitude Authorization and 
Notification Capability (LAANC) program.
    What resources does DOT need in order to expand LAANC nationwide to 
ensure drone operations near airports are safe?
    Answer. The Low Altitude Authorization and Notification Capability 
Program helps support the safe integration of drones into the nation's 
airspace. Drone operators using the system can receive near real-time 
airspace authorizations. This dramatically decreases the wait time 
associated with the manual authorization process, thus allowing 
operators to quickly plan their flights. The Low Altitude Authorization 
and Notification Capability Program uses airspace data provided through 
Temporary Flight Restrictions, notices to airmen, and unmanned aircraft 
system facility maps that show the maximum altitude ceiling around 
airports where the FAA may authorize operations under the FAA's Part 
107 regulations.
    On April 30, 2018, the FAA announced the nationwide expansion of 
the Low Altitude Authorization and Notification Capability Program. By 
the end of 2018, the FAA will deploy the system incrementally at nearly 
300 air traffic facilities covering approximately 500 airports. The 
expansion follows successful evaluation of a prototype of the Low 
Altitude Authorization and Notification Capability System last 
November.
    The FAA uses its existing resources to support the development and 
continual update of the required facility maps, FAA training resources, 
and educational outreach resources. Ongoing support of the underlying 
information technology system assists the FAA in the implementation and 
enhancement of the Low Altitude Authorization and Notification 
Capability System at all FAA facilities across the Nation.
                             aircraft noise
    Question. The Federal Aviation Administration's ``optimization of 
airspace and procedures'' in Northern and Southern California have 
significantly changed the exposure of California communities to 
airplane noise. This has provoked vocal concerns about the adequacy of 
the FAA's noise assessments and the community outreach efforts 
conducted by the Administration.
    As I have written in letters to the FAA, I believe the Department 
should do more to minimize noise impacts for these communities.
    What further steps will the Department take to address the issues 
of airplane noise raised by communities in California that fall under 
the new and newly-concentrated flight paths?
    Answer. The FAA is committed to continue engaging in efforts 
focused on the impact of concentrated flight paths and related noise 
concerns raised by communities. We are involved in several research 
efforts and are collaborating with industry, airports, and others to 
develop noise-mitigating operational procedures for current and future 
operating environments.
    There are diverse stakeholders that have a particular interest in 
the operational changes associated with modernization, including the 
communities over which these aircraft fly and who could have concerns 
about changes. As we continue to work to ensure safety and efficiency 
within the national airspace, we are cognizant of impacts to 
communities and committed to transparent engagement with the 
communities most affected by airspace changes. Cooperation via 
community roundtables is an important tool. In our experience, the most 
effective roundtable recommendations reflect consensus among its 
membership, which includes considering issues and inputs from all 
potentially affected communities. Consensus recommendations tend to 
result in long-term, satisfactory solutions and often reflect the need 
to balance competing interests.
    Question. How can the FAA do a better job ensuring that airplanes 
fly within 300 feet of the target elevation level at each waypoint on 
designated flight procedures, especially during late night and early 
morning hours?
    Answer. Instrument flight procedures may have altitudes designed at 
waypoints for a variety of reasons, typically for optimizing the 
vertical profile or for ensuring separation from other traffic flows. 
Pilots are required to comply with published altitudes on arrival and 
departure procedures when the altitudes are assigned by air traffic 
control using a specific clearance. Air traffic control actively 
monitors for compliance with assigned altitudes, while allowing for up 
to a 299-foot variance in altitude due to the inaccuracies inherent in 
altitude information systems. However, the altitudes published on a 
procedure may not always be assigned by air traffic control. This is 
similar to any other clearance issued. In some situations, controllers 
may direct an aircraft to climb or descend off of the procedure to 
maintain a safe and efficient flow of traffic in a highly dynamic 
environment. The controller is then actively directing the aircraft for 
safe sequencing.
    Question. In light of the unanticipated and negative public 
reaction to the noise impacts of the new airspace procedures, how does 
the FAA plan to re-evaluate the Day-Night Average Sound Level technique 
to ensure proper measurement of noise impact?
    Answer. Public exposure to aircraft noise has significantly 
decreased during the last forty years due to improvements in aircraft 
and engine technology, new operational procedures, and land use 
compatibility planning. At the same time, the FAA has continued to take 
further steps to reduce exposure and better understand noise impacts 
and approaches to measure noise impact. The FAA has ongoing research on 
the impacts of aviation noise. While this work is still underway, it 
will help further quantify noise impacts. Finally, the FAA continues to 
improve the modeling methodologies for quantifying noise impacts and 
evaluating potential mitigation measures.
                                 ______
                                 
           Questions Submitted by Senator Christopher Murphy
                              buy america
    Question. You talked about the President's Infrastructure 
Initiative in your testimony. I was confused when I first read the 
President's infrastructure plan because the President campaigned on his 
promise to make ``Buy American'' a priority, and then issued a very 
strong Buy American Executive order last April. But the infrastructure 
plan is actually very weak on Buy America policy. The ``Legislative 
Outline for Rebuilding Infrastructure in America'' which accompanied 
the plan contains no mention of applying Buy America policies to any of 
the new programs proposed in the plan. In fact, this infrastructure 
plan will likely weaken Buy America protections. Was this your intent?
    Answer. No. All existing Buy America statutes remain in place.
    Question. If it wasn't your intent, I would ask then that you 
clarify the meaning of ``flexibility,'' which appears on pages 21-22 
and 27 of the Legislative Outline when describing projects financed 
through multiple sources. Without clarifying language, it would seem 
that you are proposing that Buy America protections be ignored for the 
sake of expediency.
    Is the type of flexibility you are looking for? The ``flexibility'' 
to ignore domestic sourcing requirements like Buy America?
    Answer. The Infrastructure Initiative includes policy proposals 
that will expand flexibilities and broaden eligibilities in order to 
give the owner of the infrastructure asset more control over 
construction, financing, operations and maintenance.
    Question. This is important because one of the overarching tenets 
of the entire infrastructure plan is to shift financing away from 
traditional Federal sources and towards public-private partnerships.
    So if you are saying that Federal requirements like Buy America 
should be waived in the name of flexibility, and almost all projects 
will be financed through this mechanism, aren't you essentially 
eliminating Buy America from transportation projects?
    Answer. The Department takes Buy America very seriously and 
judiciously reviews each waiver requested. DOT, in the last three 
fiscal years, issued 83 waivers, often for specialized materials and 
equipment that are not available from American sources.
                                 amtrak
    Question. If you were to look at the Northeast Regional train 
schedule from Washington to New Haven, you would notice a gaping hole 
in the afternoon schedule. For instance, if I wanted to go to New Haven 
after this hearing using a Northeast Regional train, I would likely 
miss the 3:55pm train. If I were to miss that train, I would have to 
wait until 10:10pm to catch the next Northeast Regional Train. That 
train would get in at 4:20am. Such a gap in the schedule undermines the 
power of rail to serve as a comfortable and convenient alternative to 
air travel. But it doesn't have this way.
    Over 700,000 riders pass through New Haven, and its station is a 
top fifteen station on the line, and the New Haven station is an anchor 
to the Amtrak system nationally. Adding some trains from DC to New 
Haven to fill this gap would satisfy pent-up demand and meet a long-
standing request of the city, and of south-central Connecticut 
residents, businesses, and universities. Can I ask for your commitment 
to work with Amtrak and other NEC partners to add enough trains from 
Washington to New Haven from approximately 4:00pm to 10:00pm so there 
is not gap in service during that period of two hours or more?
    Answer. As the Department is not directly involved in these types 
of service decisions, DOT encourages the City to work closely with 
Amtrak, New York State DOT (NYSDOT), MTA (Metro-North), and Connecticut 
DOT, the railroad owners along this portion of the NEC whose 
contractual agreements govern the frequency of Amtrak service.
    FRA's NEC FUTURE proposes infrastructure and service improvements 
along the NEC through 2040. In developing this proposal, FRA engaged 
closely with the States and railroads to identify service and station 
improvements, and the Selected Alternative would provide significant 
additional service to many Connecticut markets, including New Haven.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin
                 appalachian development highway system
    Question. When Lyndon Johnson declared war on poverty in 1964, 
Appalachia was isolated from much of the country. One of the first 
things he created was the Appalachian Development Highway System, which 
aimed to create about 3000 miles of highways to bring commerce and 
countless opportunities to the region. About 90 percent of this system 
is finished, with only around 300 miles to go. In 2012, Congress 
reaffirmed this commitment with a ``Sense of the Senate'' that 
completion of the Appalachian Development Highway System was in the 
national interest. President Trump has committed to not leaving rural 
America behind. The Appalachia Development Highway System was created 
in that very spirit, aiming to open up rural America to the world.
    Given the importance of this system to Congress and the country, 
what are you doing to ensure that this system is finished in our 
lifetime, and how can you work with states within the Appalachian 
Regional Commission to complete the last pieces of their highway 
systems?
    Answer. FHWA is committed to Appalachian communities and the 
completion of the Appalachian Development Highway System (ADHS). Since 
the enactment of the Transportation Equity Act for the 21st Century 
(TEA-21) in 1998, funding for ADHS has been provided from the Highway 
Trust Fund and apportioned to the 13 designated Appalachian States 
based on an estimate to complete 3,090 miles of ADHS. Currently, 
approximately 90 percent of the ADHS is open to traffic. Approximately 
$1 billion in unobligated ADHS funding remains available to these 13 
States to complete the system. Additionally, States can use Surface 
Transportation Block Grant Program funds, and, in certain cases, 
National Highway Performance Program funds, for ADHS projects.
    The Consolidated Appropriations Act, 2018, also appropriated $1.98 
billion in formula funding to the States to be used for construction of 
highways, bridges, and tunnels, including designated routes of the 
Appalachian Development highway System and local access roads.
    In addition to funding, FHWA has been supporting States in 
coordination with the Appalachian Regional Commission by introducing 
tools, expertise, and financing to help explore and possibly implement 
innovative strategies to deliver costly and complex ADHS projects, such 
as Corridor H in West Virginia.
    Question. One of the most critical unfinished sections of the 
Appalachian Development Highway System--Corridor H--is located in my 
state. West Virginia has made tremendous progress over the past several 
years to advance this highway on its own, including successfully 
passing a road bond, increasing DMV fees, and passing legislation on 
public-private partnerships. Thanks to these efforts, Corridor H is 
about 90 percent finished, and the state is willing to put up $90 
million of its own funds to continue work.
    Would you consider amending the criteria for major Federal grant 
programs like TIGER or INFRA to incentivize and reward states that are 
making major investments in their own infrastructure?
    Answer. The Administration's infrastructure plan and the evaluation 
criteria for the Infrastructure Incentives Program provides for 
targeted Federal investments, encourages innovation, streamlines 
project delivery, and will help transform the way infrastructure is 
designed, built, and maintained. The Department will award grants using 
the six evaluation criteria laid out in the Infrastructure Principles, 
one of which is applicants' ability to secure and commit new 
sustainable investments using non-Federal revenue.
                              tiger grants
    Question. TIGER Grants provide state and local governments with a 
great deal of flexibility to develop a number of innovative projects. 
These infrastructure improvements are essential to economic 
revitalization in rural communities. Unfortunately, in the last round 
of TIGER grants announced in 2018, in which 41 projects were awarded in 
43 states, not a single one of those was located in Appalachia. This is 
troubling. While I don't support elimination of the program, I do think 
it should be more equitable, and was pleased to see that the fiscal 
year 18 omnibus set aside 30 percent of the TIGER grant funds for rural 
areas.
    How do you plan to ensure that rural and underserved states, such 
as West Virginia, can benefit from these programs moving forward?
    Answer. The President has called for a priority to be placed on 
correcting this disparity, and that is reflected in the recent TIGER 
awards, as well as in the President's infrastructure proposal. We will 
continue to emphasize investment in rural America.
                      airport improvement program
    Question. The recently passed omnibus included $3.35 billion for 
the Airport Improvement Program, including a $1 billion increase over 
current funding levels and explicit Congressional direction 
prioritizing small, rural airports.
    How will you ensure that small and rural airports are prioritized 
in the upcoming grant cycle as directed by Congress, and what criteria 
are you considering when making these decisions and what information do 
you need from us to ensure we get a fair share of this funding?
    Answer. The Department of Transportation is currently developing 
the selection process for the additional $1 billion in funding for 
airport grants. As required by the fiscal year 2018 omnibus 
appropriations legislation, the projects must meet the requirements 
under the FAA's authorizing law. The omnibus also specifies that 
priority consideration shall be given to airports that are either (a) 
nonprimary airports that are classified as Regional, Local, or Basic 
airports and not located within a Metropolitan or Micropolitan 
Statistical Area as defined by the Office of Management and Budget, or 
(b) primary airports that are classified as Small or Nonhub airports.
    DOT recognizes that Congress' intent is to focus these funds 
primarily on smaller airports in more rural locations. The FAA has 
already applied the criteria to eligible airports in the National Plan 
of Integrated Airport Systems and identified the pool of candidate 
airports that could receive priority consideration. Once the project 
selection guidance is finalized, airports eligible for priority 
consideration will be invited to submit grant applications for 
consideration.
                         essential air service
    Question. Rural communities depend on the Essential Air Service 
program to maintain connections with major airports and metropolitan 
areas. All travelers--leisure, tourism, and business--depend on this 
accessibility. While I commend the President for funding this critical 
program in this year's budget request, I am apprehensive about the 
administration's proposal to reform the EAS program by adjusting EAS 
eligibility based on driving distance to nearby airports.
    Can you provide assurance that rural communities will not lose 
access to essential air service, and how will this proposal calculate 
distance?
    Answer. The Essential Air Service (EAS) governing statutes 
prescribe a mileage standard for most EAS communities; not eligible if 
located fewer than 70 miles from the nearest large/medium hub. However, 
Congress has provided for long-standing exemption to the 70-mile 
standard for two communities.
    The mileage calculations used are measured by the shortest distance 
from the center of the EAS community to the entrance to the nearest 
large or medium hub airport. Further information can be found on the 
Department's website at: https://cms.dot.gov/office-policy/aviation-
policy/subsidized-essential-air-service-communities-and-distances-
nearest
    In the rare case when a community disputes the mileage from the 
community to the hub, we consult with Federal Highway Administration 
(FHWA) and FHWA makes a definitive calculation. Some communities would 
likely not be eligible for continued subsidy support under EAS by an 
adjustment to the mileage standard if it is located close to expansive 
service at small, medium, and large hubs.
                      amtrak long distance routes
    Question. The President's Budget proposes reforms to the Amtrak 
system by implementing State contributions equal to the Federal 
Government's for operating long distance routes through their 
communities. These long distance routes include the Cardinal Train and 
the Capital Line Train which both run through my state.
    Can you explain the long term plan the Department of Transportation 
and Amtrak have for these long distance routes and the impact this 
would have on my constituents?
    Answer. The President's Budget proposes a significant restructuring 
to the Amtrak network. In fiscal year 2017, long-distance routes 
accounted for approximately $500 million in operating losses for 
Amtrak. This is because ridership is lower and costs higher than on 
urban routes--making the per-passenger costs much higher. To address 
these losses, the fiscal year 2019 President's Budget proposes a number 
of options, including calling for States to assume responsibility for 
half of the operating costs of Amtrak long distance trains through 
their jurisdictions.
    This cost-sharing proposal would reduce the Federal subsidy that 
supports these routes and enable States to play a larger role in 
shaping the delivery of long distance train service. This proposal is 
one of several ideas in the President's Budget to rationalize the 
Amtrak system, improve efficiency, and reduce costs.
                  air traffic controller privatization
    Question. Reliable air service has allowed businesses in our state 
to expand their reach beyond our borders and has led to an increase in 
tourism. We must protect and promote these air services in order for 
our state's economy to continue to grow. As a pilot, I have always been 
passionate about the issues that affect the aviation community, which 
is why I am concerned about the administration's proposal to privatize 
air traffic controllers. I believe that privatizing our air traffic 
controllers will disproportionately harm rural communities, hinder 
economic growth in places like West Virginia, and make air travel less 
reliable.
    What are the reasons that you are moving forward with this 
proposal, and how can you ensure that rural communities are not 
disproportionately impacted by the privatization of air traffic 
controllers?
    Answer. The United States' air traffic control system is the 
world's largest and most complex. Yet, the current structure of the 
system is outdated when it comes to meeting the modern challenges of 
efficiently moving air traffic and maintaining the highest level of 
safety while fostering innovation and integrating new technologies. On 
June 5, 2017, the Administration unveiled a set of principles for 
reforming air traffic control operations through the creation of a new 
non-governmental entity. This new entity would have enabled the United 
States to keep pace with the accelerating rate of change in the 
aviation industry. We do not believe that rural communities would have 
been negatively affected by these changes, and they would have remained 
an important part of the nation's air transportation system.
    While we continue to believe in the benefits of modernizing our air 
traffic control system, it does not appear that Congress is pursuing 
this issue through upcoming FAA legislation. We look forward to working 
with Congress on FAA legislation so that we can continue to improve our 
nation's aviation system.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                              infra grants
    Question. The Notice of Funding Opportunity for combined fiscal 
year 2017 and 2018 INFRA grants was released last July, but no funding 
announcements have been made. You suggested in previous testimony 
before the House that you expect to make a funding announcement in the 
summer of 2018.
    Is that timeline still accurate?
    Answer. Yes. The Department announced 26 proposed INFRA awards on 
June 8, 2018. The Department will begin awarding these projects 
following the completion of the 60-day Congressional review period in 
early August. All applicants have been notified of the completion of 
the competition.
    Question. I am concerned about the delay in getting funding to 
projects that need it. Will you commit to making funding decisions more 
quickly in fiscal year 2019, and that there will be no further delays 
in awarding fiscal year 17 and fiscal year 18 funds?
    Answer. The Department submits each of the discretionary grant 
applications to a comprehensive and thorough evaluation according to 
the criteria set out by Congress and in DOT's Notice of Funding 
Opportunity. DOT wants to make sure that the projects which best 
address the criteria are prioritized for funding.
                       infrastructure cost share
    Question. One major prong of the President's infrastructure plan is 
to dramatically shift the Federal cost share for transportation 
projects onto state and local governments. I have heard serious 
concerns about this aspect of the plan from the Vermont Department of 
Transportation, particularly its burden on rural states.
    Which state departments of transportation have you heard from that 
support shifting the Federal cost share in this way, and which oppose 
it? Has the Department of Transportation actively sought feedback from 
state departments of transportation about this proposed shift?
    Answer. At best, Federal funding for infrastructure represents a 
minority of total spending. Spending across public infrastructure is 
approximately 20 percent by the Federal government and 80 percent by 
State and local governments. The President's plan supports traditional 
funding levels.
    The President's proposal does not in any way change the existing 
matching requirements for the Federal-aid Highway Program; each State 
will continue to receive their current Highway Trust Fund dollars. The 
President's proposal is for additional funds and we want to partner 
with the states.
    Furthermore, the proposal provides up to 20 percent Federal funding 
as a percent of new revenue, not project cost.
    Question. How do you foresee the President's plan ensuring that 
small, rural states will be competitive and full partners in and have 
access to the Federal resources they need to meet their infrastructure 
needs?
    Answer. The Administration's proposal provides significant support 
for rural areas. Most significantly, the Rural Infrastructure Formula 
Program provides $40 billion in block grants to Governors to address 
the rural infrastructure needs in their states, which could include 
rural interstates. No match is required for these funds. In addition to 
the formula program, the Administration's proposal for $10 billion in 
Rural Performance Grants would only require a State to meet one or more 
of the criteria options below.
    In order to qualify for Rural Performance Grants, a State would be 
required to:

  --Publish a comprehensive rural infrastructure investment plan (RIIP) 
        within 180 days of receiving rural formula funds. The RIIP 
        would demonstrate how the State's intended rural projects align 
        with the evaluation criteria in the Infrastructure Incentives 
        Program, including State, local and private sector investment 
        in eligible projects.

  --Demonstrate the quality of any investments planned with rural 
        performance funds.

  --Demonstrate performance in leveraging formula distributions with 
        Federal credit programs and rewarding rural interstate projects 
        through the Infrastructure Incentives Program (Note: This 
        refers to all types of eligible asset classes, not just 
        interstate highways. Also, this is intended to reflect multi-
        state infrastructure of all types, that serve regional needs 
        rather than being focused on jurisdictional boundaries, which 
        are sometimes misaligned to infrastructure investment needs).

  --Demonstrate the State's performance in utilization of Rural 
        Infrastructure Program formula funds, consistent with the RIIP 
        based on stated general criteria.
                              buy america
    Question. The Federal Highway Administration's Buy America 
requirements are critical to ensuring that American businesses are 
prioritized over foreign competitors. There are cases, however, where 
there is no domestic production of certain equipment and the waiver 
process can make it difficult for states to acquire the equipment they 
need.
    Are you willing to consider streamlining the Buy America waiver 
process in cases where there is no domestic product available?
    Answer. The Office of the Secretary is working with the operating 
administrations to improve the efficiency of our waiver processes, 
including for requests based on non-availability, while meeting the 
requirements of Executive Order 13788 and the relevant statutes.
                             cafe standards
    Question. Transportation is the United States' largest contributor 
of greenhouse gases, accelerating the consequences of climate change. 
It is concerning that the National Highway Traffic Safety 
Administration (NHTSA) and the EPA have decided that the current 
corporate average fuel economy (CAFE) standards are too aggressive and 
should be weakened. This would not only waste fuel, but also increase 
emissions and cost consumers more, particularly in a state like Vermont 
where transportation is responsible for 44 percent of our greenhouse 
gas emissions. The CAFE standards changes proposed by NHTSA and the EPA 
are not in the interest of the public or the industry, and will 
negatively impact Vermonters' health, air quality improvements, and 
pocketbooks.
    Should a state be able to implement its own stringent vehicle 
emission standards, if that state believes those standards are critical 
to its ability to achieve its own emission reduction goals? How will 
you accommodate the policies of states like Vermont that, in applying 
strict vehicle emission standards, are working to achieve their own 
individual emission reduction goals, particularly those states where 
transportation contributes a high proportion of greenhouse gas 
emissions?
    And will you commit to having a collaborative, transparent effort 
going forward that includes the State of California, and states with 
similar standards, as well as the auto industry, to develop a national 
program to reduce greenhouse gas emissions and improve fuel economy?
    Answer. The Department is committed to an open, transparent and 
fair public comment process and is committed to listening to all public 
comments. Both NHTSA and DOT have met with California officials 
multiple times to hear California's views, and there will probably be 
additional such meetings as more States develop their own emissions 
standards. DOT has also met with a wide range of stakeholders including 
environmental groups, manufacturers, organized labor, and safety 
advocates. There is a great deal of interest in this important 
rulemaking, and we look forward to receiving input from stakeholders, 
including States like Vermont, on these important issues.
    Question. How do you expect U.S. innovators and manufacturers to 
continue to compete on the international stage if the standards 
proposed by this administration are inconsistent with global efforts to 
reduce greenhouse gas emissions and remain uncertain going forward?
    Answer. The Department will take comment on a wide range of 
options, including similar stringency to the standards set by the 
previous administration. If, in response to public comment, the 
agencies set standards at a reduced level of stringency than the 
standards set by the previous administration, a manufacturer would need 
to decide how to proceed.
    If a manufacturer decides to globalize a vehicle platform so that 
the same vehicles can be sold in the United States and in countries 
that may have more-stringent standards, a compliant fleet of vehicles 
in such countries would also comply with U.S. standards as well as 
those of countries with less stringent standards than ours. By 
overcomplying with U.S. standards, the manufacturer could generate 
overcompliance credits that it could bank for its own use in future 
model years or sell to other manufacturers.
    Question. Current CAFE standards create more efficient vehicles and 
help Americans save money. How do you plan to incentivize research and 
development of more fuel efficient, affordable vehicles?
    Answer. We have great confidence in the ability of the 
manufacturers to innovate and make high quality vehicles that meet 
consumers' needs. Consumer acceptance will be one focus of the upcoming 
proposal, and we will assess the costs and benefits of the proposed 
standards and alternative standards.
          amtrak vermonter route and crisi grant eligibilities
    Question. The Trade Facilitation and Trade Enforcement Act of 2015 
(Public Law 114-125) aims to improve cross border travel between Canada 
and the United States through efforts that will allow Customs and 
Border Protection to expand preclearance facilities at Canadian 
airports and rail stations. In Vermont, we want to restore the Amtrak 
passenger service on the Vermonter route north to Montreal. I 
understand that during a meeting about this project in Montreal last 
summer, Federal Railroad Administration officials committed that the 
infrastructure needs associated with this effort would be eligible for 
both the Consolidated Rail Infrastructure and Safety Improvements 
(CRISI) grant program and the Restoration and Enhancement Grants 
program.
    As various stakeholders work to advance the project can you confirm 
that this is the case, and will you pledge to follow through on this 
commitment?
    Answer. Infrastructure needs associated with extending Amtrak 
passenger service on the Vermonter route from its current endpoint at 
St. Albans to Montreal are likely eligible projects under the 
competitive CRISI grant program for projects located within the United 
States. Likewise, a Restoration and Enhancement Grant to fund a portion 
of this route's operating costs within the United States could also be 
used to extend this service to the Canadian border.
    However, in order to fund projects outside of the United States, 
authorizing or appropriations language must clearly and affirmatively 
state that the funding applies outside of the United States. The CRISI 
and Restoration and Enhancement Grant Programs lack this authority.

                          SUBCOMMITTEE RECESS

    Senator Collins. This hearing is now adjourned.
    Secretary Chao. Thank you.
    Senator Collins. [Whereupon, at 4:16 p.m., Wednesday, April 
11, the subcommittee was recessed, to reconvene subject to the 
call the Chair.]
</pre></body></html>
